NATIONAL COURT-APPOINTED
SPECIAL ADVOCATE PROGRAM


     U.S. Department of Justice
   Office of the Inspector General
            Audit Division

        Audit Report 07-04
         December 2006
                         NATIONAL COURT-APPOINTED
                       SPECIAL ADVOCATE ASSOCIATION

                             EXECUTIVE SUMMARY

       As required by Congress, the U.S. Department of Justice Office (DOJ)
of the Inspector General (OIG) conducted an audit of the National
Court-Appointed Special Advocate Association (NCASAA).1 The objectives of
this audit, as mandated by Congress, were to determine: (1) the types of
activities NCASAA has funded since 1993, and (2) the outcomes in cases
where court-appointed special advocate (CASA) volunteers are involved as
compared to cases where CASA volunteers are not involved, including:

   •   the length of time a child spends in foster care;2

   •   the extent to which there is an increased provision of services;

   •   the percentage of cases permanently closed;3 and

   •   achievement of the permanent plan for reunification or adoption.4




       1
           Pub. L. No. 109-162 (2006)
       2
           Generally, prior studies of the CASA program and the data tracked by the
U.S. Department of Health and Human Services (HHS) on children in the state and local
child protective services (CPS) system reported on children in out-of-home care rather than
children in foster care. The information reported on children in out-of-home care includes
all children in foster care, as well as children placed with a relative or legal guardian, who
was not a qualified foster parent. Since the prior studies and available HHS data did not
include information on only those children in foster care, in this report we considered all
children in out-of-home care to be in “foster care” for the purposes of addressing this
objective.
       3
         All state and local CPS cases are eventually permanently closed because even in
those cases for which permanent placement of the child was not achieved, the case is
closed when the child reaches the age of majority, is incarcerated, or dies. As a result, for
the purposes of this audit we defined permanent closure as those cases that had been
closed by CPS, whether due to permanent placement or any other reason, and the child had
not reentered the Child Welfare System (CWS) at anytime prior to the date the case data
was collected for this audit.
       4
         For each child in the CWS, a permanent plan for the placement of the child is
developed. The permanent plan outlines what will happen to the child upon resolution of
the cases. Generally, the permanent plan is either reunification with the parents or
adoption.
Background

      In 1976, Superior Court Judge David Soukup of Seattle, Washington,
concluded that he was not obtaining sufficient relevant facts during case
hearings necessary to ensure that the long-term welfare of the child was
being represented. To address this concern, he developed the concept of
recruiting and training community volunteers to represent the best interest
of the child in court proceedings. In 1977, the first CASA pilot program was
implemented in Seattle. The purpose of the CASA program is to ensure that
abused and neglected children receive high-quality, sensitive, effective, and
timely representation in court hearings to determine their guardianship.

       In 1978, the National Center for State Courts selected the Seattle
CASA program as the best national example of citizens participating in
juvenile justice, resulting in the replication of the program in courts across
the country. By 1982, it was clear that a national association was needed to
coordinate the 54 existing state and local CASA programs and provide
training and technical assistance. As a result, in 1984 NCASAA was
incorporated and its headquarters office was opened in Seattle.

       At the time NCASAA was incorporated, there were 107 state and local
CASA programs in 26 states.5 As of 2005, there were 948 state, local, and
tribal CASA programs in 49 states that served an estimated 226,204
children.6

Statistics on Child Abuse in the United States

      According to the U.S. Department of Health and Human Services
(HHS), in fiscal year (FY) 2004, an estimated 3 million children were alleged
to have been neglected or abused and were the subject of investigation or
assessment by state or local child protective services (CPS) agencies.7
Additionally, in FY 2004:

   •   Approximately 872,000 children were identified as victims of
       maltreatment.
       5
         These programs include both CASA volunteers and guardian ad litem (GAL)
volunteers, who are generally lawyers appointed by the court to represent children in abuse
or neglect cases. A CASA volunteer may also be a GAL or work in conjunction with a GAL.
       6
       North Dakota is the only state with a CASA program that is not a member of
NCASAA because it uses paid advocates rather than volunteers.
       7
        U.S. Department of Health and Human Services, Administration for Children, Youth
and Families, Children’s Bureau, Child Maltreatment 2004, (Washington, D.C.: U.S.
Government Printing Office, 2006).



                                         - ii -
   •   An estimated 1,490 children died as a result of child abuse or neglect.

   •   More than 80 percent of the children who died were 4 years old or
       younger.

     An HHS report, The Adoption and Foster Care Analysis and Reporting
System (AFCARS) Report No. 13, Preliminary FY 2005 Estimates, September
2006 (2005 AFCARS report), estimated that as of September 30, 2005:8

   •   An estimated 513,000 children were in foster care.

   •   The average age of children in foster care was 10 years old and the
       average length of stay in foster care was 28.6 months.

   •   118,000 children were awaiting adoption.

      Further, according to the 2005 AFCARS report, in FY 2005
approximately 311,000 children entered foster care, while 287,000 exited
foster care.

Office of Justice Programs

      Since 1984, DOJ Office of Justice Programs (OJP) has worked to
improve the juvenile justice systems and assist crime victims. The Victims
of Child Abuse Act of 1990, as amended, authorized the OJP Office of
Juvenile Justice and Delinquency Prevention (OJJDP) to administer a newly
created CASA grant program.

       The OJP Office for Victims of Crime (OVC) also provides funding
through the Tribal Court CASA Program, which assists in developing and
enhancing programs that provide volunteer advocacy for abused or
neglected Native American children. Additionally, CASA programs are also
eligible to receive Victims of Crime Act (VOCA) funding at the state level,
which provides support services to crime victims.

      OJP partners with NCASAA to administer the CASA grant program and
provide funding, training, and technical assistance to state, local, and tribal
CASA programs. Since 1993, OJP has awarded NCASAA 15 grants totaling

       8
        U.S. Department of Health and Human Services, Administration for Children, Youth
and Families, Children’s Bureau, The AFCARS Report No.13, Preliminary FY 2005 Estimates,
September 2006.




                                       - iii -
$100.4 million, including 12 OJJDP grants totaling $98.52 million and 3 OVC
grants totaling $1.88 million.

Summary of Findings and Recommendations

Activities Funded by NCASAA

       To determine the types of activities funded by NCASAA since 1993, as
mandated by Congress, we requested that NCASAA provide accounting data
from January 1, 1993, through June 30, 2006, for all expenditures from both
federal and non-federal funding sources. We found that NCASAA did not
retain any accounting records or supporting documentation for expenditures
occurring prior to 1995. Additionally, although NCASAA retained some of
the accounting records and supporting documentation for 1995 through
1997, the information was incomplete. According to federal regulations
(28 C.F.R. § 70), grantees are only required to retain financial records,
supporting documents, statistical records, and all other records pertinent to
Department of Justice grants for a period of 3 years from the date of
submission of the final financial report. Because NCASAA was not required
to and did not retain the accounting records and supporting documentation
for its expenditures occurring prior to 1998, we cannot provide information
regarding activities funded by NCASAA prior to that time in this report.

      However, we were able to obtain information related to the activities
funded by NCASAA from January 1, 1998, through June 30, 2006. As shown
in Table 1, from January 1, 1998, through June 30, 2006, NCASAA expended
$88.86 million in funds received through OJP grant programs and
$14.24 million in funds received from all other sources including foundations.




                                   - iv -
TABLE 1.      NCASAA EXPENDITURES BY ACTIVITY, JANUARY 1, 1998,
              THROUGH JUNE 30, 2006 (MILLIONS)9
                                                                             PERCENT OF
                                               PERCENT OF           TOTAL      TOTAL
                                     TOTAL       TOTAL         FUNDING        FUNDING
                                    FEDERAL     FEDERAL      NON-FEDERAL    NON-FEDERAL
        ACTIVITIES FUNDED           FUNDING     FUNDING        SOURCES        SOURCES
 DIRECT ACTIVITIES
   Awards to Subgrantees            $ 57.16       64.33%        $    3.29      23.10%
   Training & Technical
     Assistance                      13.63        15.34%          4.71        33.08%
   Membership & Public Outreach      11.98        13.48%          4.36        30.62%
   Subtotal                         $82.77       93.15%         $12.36        86.80%
 SUPPORT ACTIVITIES
 General & Administrative           $ 6.09          6.85%      $  0.91         6.39%
 Fundraising                           0.0          0.00%         0.97         6.81%
   Subtotal                         $ 6.09         6.85%        $ 1.88        13.20%
     TOTAL ACTIVITIES
         FUNDED10                   $88.86         100%         $14.24         100%
Source: NCASAA general ledgers

       We also found that:

   •   NCASAA expended $82.77 million (93.15 percent) of its OJP grant
       funding on activities that directly supported CASA programs. The
       direct activities funded by NCASAA include: (1) awards to subgrantees
       to support state and local CASA programs, (2) training and technical
       assistance for state and local CASA programs, and (3) membership
       and public outreach.

   •   NCASAA expended $6.09 million (6.85 percent) of its OJP grant
       funding on general and administrative support activities, which is
       significantly less than the 16.3 percent average administrative costs
       for human services non-profit organizations.11



       9
        The amounts reported in this table reflect the activities funded by NCASAA as
determined by our audit.
       10
         Differences in total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.
       11
          Thomas H. Pollak and Mark Hager, The Urban Institute, and Patrick Rooney,
Indiana University, “Understanding Management and General Expenses of Non-profits,” an
Overhead Cost Study Working Paper presented at the 2001 Annual Meeting of the
Association for Research on Non-profit Organizations and Voluntary Actions, New Orleans,
LA, 2001.



                                         -v-
       During our review of NCASAA’s accounting records, we found that from
1999 through 2006 NCASAA recorded that it allocated $1.23 million of its
OJP grant funds to fundraising activities. However, we determined that this
was the result of an accounting error and that NCASAA did not use OJP grant
funds for fundraising activities. We also found that in 1998 and 1999
NCASAA failed to input a program accounting code identifying the program
activity for expenses totaling about $1.5 million. We informed NCASAA of
these errors during our review, and they have since been corrected.

Court-Appointed Special Advocate Program Outcomes

       We found that with the exception of the length of time a child spends
in foster care, HHS does not require state and local CPS programs to report
data that specifically addresses the outcome measures mandated by
Congress for this audit. NCASAA also does not request that its CASA
program members provide data that specifically addresses the outcome
measures required for this audit. As a result, although we obtained data for
the state and local CASA programs that we used to address the audit
objectives, we were not always able to obtain comparison data for cases that
did not involve a CASA volunteer.

       We also found that OJP had established outcome measures for its
CASA grant programs. However, the outcome measures established by OJP
do not address the effectiveness of the programs in meeting the needs of
children in the CWS. Additionally, none of the outcome measures
established by OJP address the outcome measures mandated for this audit.
In our judgment, OJP should develop outcome performance measures for
the CASA grant programs to determine the effectiveness of the programs in
meeting the needs of children in the CWS. As appropriate, these outcome
measures should correspond with the data required by HHS for state and
local CPS agencies, so that OJP has a basis for comparing the effectiveness
of its CASA grant programs.

      Because of the lack of data on the objectives mandated for this audit,
to determine the outcomes in cases where CASA volunteers are involved as
compared to cases where CASA volunteers are not involved, we relied on the
following:

  •   prior studies of the NCASAA program;

  •   data on (1) the length of time a child spends in foster care, (2) the
      extent to which there is an increased provision of services, (3) the
      percentage of cases permanently closed, and (4) achievement of the



                                  - vi -
       permanent plan for reunification or adoption from the state and local
       CASA program case-tracking databases (CASA Data Request), which
       we compared to national data on the same measures maintained by
       HHS for all CPS cases, including both CASA and non-CASA cases;

   •   data from an OIG survey distributed to all state, local, and tribal CASA
       program offices; and

   •   the most recent AFCARS data available at the time our analysis was
       conducted on all children in the state and local CPS for comparison
       purposes.12

      We identified two studies of the CASA program that in our judgment
provided the most comprehensive and current information related to this
objective.

   •   Youngclarke, Davin M. and Kathleen Ramos and Lorraine
       Granger-Merkle. "A Systematic Review of the Impact of
       Court-Appointed Special Advocates," Journal of the Center for
       Families, Children and the Courts, Vol. 5, 2004, pp. 109-126
       (Youngclarke Review). The Youngclarke Review summarized the
       findings of 20 prior studies that assessed the impact of CASA
       programs. In conducting the review, almost 70 prior studies of CASA
       programs were analyzed, but only 20 met the criteria for inclusion in
       the results of the Youngclarke Review. The review compares the
       combined average outcome measures reported in the prior studies for
       cases involving a CASA volunteer to those for which a CASA volunteer
       was not appointed.

   •   Caliber Associates, Evaluation of CASA Representation, 2004, (Caliber
       Study).13 The Caliber Study combines data from NCASAA’s
       management information systems and data collected through the
       National Survey of Child and Adolescent Well-Being, a federally
       sponsored national survey of children and their families. The study
       compares outcome measures for cases involving a CASA volunteer to
       those for which a CASA volunteer was not appointed.



       12
          It should be noted that HHS does not collect separate data on CASA cases.
Rather, the AFCARS data includes all CASA and non-CASA cases related to children in the
state and local CPS.
       13
          It should be noted that the Caliber Study was funded in part by NCASAA. Funding
was also provided by the Packard Foundation.



                                        - vii -
      For the CASA Data Request, NCASAA distributed our request for data
on the four outcome measures from the case management systems to
731 state, local, and tribal CASA programs. We received data related to
time in foster care, permanent case closure, and the case outcomes
including adoption and reunification from 192 respondents representing
339 programs. However, we generally did not receive data on the number
of services ordered by the courts and received by children and their parents
because it was not generally tracked in the case management systems.

       Additionally, we distributed a nationwide survey to state, local, and
tribal CASA programs offices requesting information on the four outcome
measures, as well as additional information on the: (1) basis for the
responses related to the four outcome measures in our survey,
(2) effectiveness of NCASAA, and (3) data reported in the Caliber Study,
which was the most recent study available related to the outcome measures.
Out of the 945 CASA programs to which the OIG survey was sent, we
received 491 responses. The consolidated results of the OIG survey are
detailed in Appendix II.

      The results of our audit related to the outcomes in cases where CASA
volunteers are involved as compared to cases where CASA volunteers are
not involved for (1) the length of time a child spends in foster care, (2) the
extent to which there is an increased provision of services, (3) the
percentage of cases permanently closed, and (4) achievement of the
permanent plan for reunification or adoption, are discussed in the following
sections.

Length of Time in Foster Care

      We found that the length of time a child spends in foster care is longer
for cases involving a CASA volunteer as compared to cases that did not
involve a CASA volunteer. As shown in Table 2, the Youngclarke Review and
Caliber Study found that the average length of time a child spends in foster
care is between 3.9 months and 1.5 months longer for cases involving a
CASA volunteer.




                                   - viii -
TABLE 2.     LENGTH OF TIME IN FOSTER CARE PRIOR STUDIES
                                   TIME IN FOSTER CARE (MONTHS)
                                                          DIFFERENCE
              STUDY              CASA       NON-CASA      FOR CASA
     Youngclarke Review           23.9         20.0        + 3.9
     Caliber Study                10.2          8.7        + 1.5
Source: Youngclarke Review and Caliber Study

       It should be noted that both the Youngclarke Review and Caliber Study
concluded that there was no significant difference in the length of time a
child spends in foster care for cases involving a CASA volunteer as compared
to cases that did not involve a CASA volunteer.

      We also found that the length of time a child spends in foster care is
longer for cases involving a CASA volunteer as compared to the national
average for all CPS cases, including CASA cases.14 As shown in Table 3,
based on the CASA Data Request and the OIG survey the average length of
time a child spends in foster care is between 2 months and 1.2 months
longer for cases involving a CASA volunteer than the national average for all
CPS cases.

TABLE 3.      LENGTH OF TIME IN FOSTER CARE OIG ANALYSIS
                                   TIME IN FOSTER CARE (MONTHS)

                                                                           DIFFERENCE
           SURVEY                         CASA           AFCARS15          FOR CASA
   CASA Data Request                       15.8            13.8               + 2.0
   OIG Survey16                            17.2            16.0               + 1.2
Source: CASA Data Request, OIG survey, 2004 and 2005 AFCARS Report




       14
           For the CASA program case system data request and the OIG survey, we used the
weighted average of the length of time a child spends in foster care where a CASA volunteer
is involved.
       15
           For the CASA Data Request, we compared the weighted average of the length of
time a child spends in foster care where a CASA volunteer is involved to the 2004 AFCARS
data which was the most recent data available at the time our analysis was conducted. It
should be noted that AFCARS data includes all CASA and non-CASA cases related to children
in the state and local CPS. For the OIG survey, we compared the weighted average of the
length of time a child spends in foster care where a CASA volunteer is involved to the 2005
AFCARS data.
       16
         The weighted average number of months in foster care that was calculated for the
OIG survey is based on the number of respondents rather than children.



                                        - ix -
      Although we found that children in cases involving a CASA volunteer
were on average in foster care longer, this is not necessarily an indication
that the CASA program is not effective. We base our conclusion on the
following:

   •   According to the Caliber Study, cases assigned to a CASA volunteer
       frequently involve the most serious cases of maltreatment and these
       children were more at risk. As a result, for the majority of cases
       involving a CASA volunteer, the children were placed in foster care
       much more frequently than in cases not referred to a CASA program
       office.

   •   Based on the results of the OIG survey, we found that the majority of
       respondents estimated that on average 81 to 100 percent of the
       children in cases involving a CASA volunteer were placed in foster care
       prior to the time that the case was referred to the CASA program
       office.

   •   As shown previously in Table 3, from the CASA Data Request and the
       OIG survey, we found that in cases involving a CASA volunteer the
       total time the child was in foster was 2 and 1.2 months longer than in
       cases not involving a CASA volunteer, respectively. However, from the
       CASA Data Request and the responses to the OIG survey, we found
       that for cases involving a CASA volunteer, the child was in foster care
       an estimated average of 5.5 and 4.5 months, respectively, prior to the
       time that the case was referred to a CASA program office. Therefore,
       the time children spent in foster care prior to the assignment of a
       CASA volunteer directly affects the fact that children with a CASA
       volunteer were in foster care longer.

Number of Services Provided

      Examples of services ordered by the court for children include mental
health, medical treatment, and training in independent living if children are
close to the age of majority. Services ordered by the court for parents
include mental health, drug, and alcohol treatment, as well as training on
basic health and domestic violence.

       The Youngclarke Review and Caliber Study both included the number
of services ordered for children and the parents of children in cases involving
a CASA volunteer as compared to cases not involving a CASA volunteer.
This information was obtained from actual CASA, CPS and court case files
and through interviews of CASA and CPS officials. Based on the Youngclarke



                                    -x-
Review and the Caliber Study, on average between 2.1 and 3.1 additional
services were ordered by the court for children and the parents of children in
cases involving a CASA volunteer, as shown in Table 4.

TABLE 4.    NUMBER OF SERVICES ORDERED FOR CHILDREN AND
            PARENTS
                              NUMBER OF SERVICES
                                   ORDERED        DIFFERENCE
        STUDY OR SURVEY       CASA      NON-CASA  FOR CASA
   Youngclarke Review          9.0         6.9      + 2.1
   Caliber Study              19.1        16.0      + 3.1
Source: Youngclarke Review and Caliber Study

      We were unable to verify the results of the Youngclarke Review and
the Caliber Study. The number of services ordered for children and the
parents of children in the CWS is not an outcome that is generally tracked by
state, local, and tribal CASA programs in their case management systems.
Therefore, we were unable to obtain sufficient data related to this outcome
measure from the CASA Data Request.

      Based on the OIG survey, we found that on average 8.1 services were
ordered for the children and parents of children in cases involving a CASA
volunteer. However, HHS does not require state and local CPS programs to
report data on the number of services ordered. As a result, we were unable
to compare the information we obtained from the OIG survey to the national
average.

Percentage of Cases Permanently Closed

       All state and local CPS cases are eventually permanently closed, even
those cases for which permanent placement of the child was not achieved,
when the child reaches the age of majority, is incarcerated, or dies. As a
result, for the purposes of this audit, we defined permanent closure as those
cases that had been closed for any reason and the child had not reentered
the CWS at anytime prior to the date the case data was collected for this
audit.

      The Youngclarke Review found that cases involving a CASA volunteer
were more likely to be “permanently closed” as compared to cases not
involving a CASA volunteer. Specifically, the review found that only
9 percent of children in cases involving a CASA volunteer reentered the CWS
as compared to 16 percent of children in cases not involving a CASA
volunteer.



                                      - xi -
      The Caliber Study did not provide data on the percentage of children
who reentered the CWS; rather, the study reported on the number of cases
for which subsequent allegations of abuse were reported. The Caliber Study
found that:

  •   Subsequent allegations of abuse were reported for 36 percent of the
      closed cases involving a CASA volunteer as compared to 25 percent of
      the closed cases that did not involve a CASA volunteer.

  •   Conversely, subsequent allegations of abuse were reported for only
      34 percent of the open cases involving a CASA volunteer as compared
      to 52 percent of the open cases that did not involve a CASA volunteer.


      It should be noted that the Caliber Study did not determine whether
the subsequent allegations of abuse were substantiated. Additionally, the
Caliber Study concluded that there was no significant difference in the
subsequent allegations of abuse related to children with or without a CASA
volunteer.

      HHS does not require state and local CPS agencies to report data on
permanent case closure or the number of children who reenter the CWS.
Further, NCASAA does not require that its CASA program members provide
reentry data. CASA volunteers are frequently dismissed by the courts once
permanent placement is achieved. Once CASA volunteers are dismissed
from a case, they no longer have access to court records related to case
closure. Additionally, if a child reenters the CWS, the CASA program does
not receive this information unless the new case is referred by the court.

        Nonetheless, we requested that the state, local, and tribal CASA
programs provide reentry data in the CASA Data Request and the OIG
survey. The results of the information we received in response to our survey
is listed below.

  •   From the information provided in the CASA Data Request, we found
      that for the 75,389 CASA cases closed between FYs 2002 and 2004
      only 1,073 (1.4 percent) of the children reentered the CWS during that
      same period.

  •   From the information provided in the OIG survey, the majority of the
      respondents (64 percent) estimated that on average for 81 to
      100 percent of cases involving a CASA volunteer the child does not
      reenter the CWS.



                                  - xii -
Achievement of the Permanent Plan for Reunification or Adoption

       For each child in the CWS, a permanent plan for the placement of the
child is developed. Generally, the permanent plan is either reunification with
the parents or adoption. In recent years, to minimize the time a child
spends in the CWS, dual permanent plans have been incorporated in most
jurisdictions so that a back-up plan runs parallel to the primary plan.17 As
result, in these instances either the primary or the back-up permanent plan
is generally achieved.

      Neither the Youngclarke Review nor the Caliber Study included data on
whether the permanent plan was achieved. However, both studies included
data on case outcomes, including the percentage of cases that resulted in
reunification, adoption or other closure. Specifically:

   •   The Youngclarke Review found that 28 percent of children with a CASA
       volunteer were adopted as compared to 22 percent of children without
       a CASA volunteer. Conversely, only 40 percent of children with a
       CASA volunteer were reunified with their parents as compared to
       45 percent of children without a CASA volunteer.

   •   The Caliber Study found that 11 percent of children with a CASA
       volunteer were referred for adoption as compared to 5 percent of
       children without a CASA volunteer. However, 63 percent of children
       with a CASA volunteer were reunified with their parents as compared
       to 54 percent of children without a CASA volunteer.

      HHS does not require state and local CPS agencies to report data on
achievement of the permanent plan. NCASAA also does not request that its
CASA program members provide data on achievement of the permanent
plan. However, from the CASA Data Request and OIG Survey we were able
to obtain data on outcomes for cases involving a CASA volunteer, including
the percentage of cases that resulted in reunification, adoption or other
closure, which we compared to the national average for all CPS cases,
including CASA cases. Specifically:



       17
           Dual permanent plans were, in part, the result of the Adoptions and Safe Families
Act of 1997, which shortened timelines to encourage the speedy adoption of children for
whom reunification or guardianship was not an option. Typically the primary plan is
reunification with the parent and the back-up plan is adoption, both of which are pursued in
parallel to reduce the time a child is in the system and the time it takes to achieve a
permanent plan.



                                        - xiii -
  •   The CASA Data Request found that 19 percent of children in cases
      involving a CASA volunteer were adopted as compared to the national
      2004 AFCARS average of 18.2 percent. Additionally, 40.8 percent of
      children in cases involving a CASA volunteer were reunified with their
      parents as compared to the national 2004 AFCARS average
      of 54 percent.

  •   The OIG survey found that respondents estimated that on average
      20.7 percent of children in cases involving a CASA volunteer were
      adopted as compared to the national 2005 AFCARS average of
      18.2 percent. Additionally, 44.5 percent of children in cases involving
      a CASA volunteer were reunified with their parents as compared to the
      national 2005 AFCARS average of 54 percent.

      Based on the available data, we found that children in cases involving
a CASA volunteer were more likely to be adopted and less likely to be
reunified with their parents than children in cases not involving a CASA
volunteer. However, this may be because cases involving a CASA volunteer
are typically the most serious cases of maltreatment. Therefore, children in
these types of cases may be less likely to be reunified with their parents,
regardless of whether or not a CASA volunteer was involved.

Summary and Conclusion

       From January 1, 1998, through June 30, 2006, NCASAA expended a
total of $88.86 million in funds received through OJP grant programs and
$14.24 million in funds received from all other sources, including private
foundations. NCASAA expended 93.15 percent of its OJP grant funding on
activities that directly supported CASA programs. Conversely, NCASAA
expended 6.85 percent of its OJP grant funding on general and
administrative support activities, which is significantly less than the
16.3 percent average administrative costs for human services non-profit
organizations.

       Additionally, from 1999 through 2006, as a result of an accounting
error, NCASAA recorded that it allocated $1.23 million of its OJP grant funds
to fundraising activities when, in fact, these funds had not been spent for
that purpose. We also found that in 1998 and 1999 NCASAA failed to input
a program accounting code identifying the program activity for expenses
totaling about $1.5 million. We informed NCASAA of these errors during our
review and they have since been corrected.




                                  - xiv -
       With respect to the questions identified by Congress, we found that
OJP had established outcome measures for its CASA grant programs.
However, the outcome measures established by OJP do not address the
effectiveness of the programs in meeting the needs of children in the CWS.
Additionally, none of the outcome measures established by OJP address the
outcome measures mandated for this audit. Further, with the exception of
the length of time a child spends in foster care, HHS does not require state
and local CPS agencies to report data that specifically addresses the
outcome measures mandated by Congress for this audit. NCASAA also does
not request that its CASA program members provide data that specifically
addresses the outcome measures required for this audit.

     Nonetheless, based on the available data and the results of the OIG
survey, we found that in cases where CASA volunteers are involved as
compared to cases where CASA volunteers are not involved:

  •   the children spent more time in foster care as result of the fact that
      the children were generally already in foster care before a CASA
      volunteer was assigned;

  •   the children and their parents were ordered by the courts to
      participate in more services and received more services;

  •   the case was more likely to be “permanently closed,” (i.e., the children
      were less likely to reenter the CWS); and

  •   the children were more likely to be adopted and less likely to be
      reunified with their parents.

       Although the outcomes for cases involving a CASA volunteer appear to
be less favorable in some instances than cases not involving a CASA
volunteer, this may be a result of the fact that cases involving a CASA
volunteer are typically the most serious cases of maltreatment. Therefore,
children in these types of cases are more likely to: (1) be placed in foster
care, (2) require more services, and (3) be adopted rather than reunified
with their parents. However, we also found that based on the limited
information available, children in cases involving a CASA volunteer were less
likely to reenter the CWS after permanent placement was achieved.




                                   - xv -
Recommendations

      Our report contains two recommendations that focus on specific steps
that OJP should take to improve the CASA grant program. These
recommendations include requiring that:

  •   NCASAA establish a methodology for allocating indirect costs so that
      federal funds are not charged to unallowable cost categories.

  •   Outcome-based performance measures are developed for its CASA
      programs that determine the effectiveness of the programs in meeting
      the needs of children in the CWS. As appropriate, these outcome
      measures should correspond with the data required by HHS for state
      and local CPS agencies, so that OJP has a basis for comparing the
      effectiveness of its CASA grant programs.




                                 - xvi -
                      NATIONAL COURT-APPOINTED
                    SPECIAL ADVOCATE ASSOCIATION

                                TABLE OF CONTENTS
INTRODUCTION ................................................................................ 1

   Background ...................................................................................1
       National Court-Appointed Special Advocate Association .................... 2
       Court-Appointed Special Advocates ............................................... 4
       CASA Volunteer Application, Screening, and Selection ...................... 5
       CASA Volunteer Training .............................................................. 6
       Statistics on Child Abuse in the United States ................................. 6
       Legislation ................................................................................. 7
       Office of Justice Programs ............................................................ 7
       Office of Juvenile Justice and Delinquency Prevention....................... 8
       Office for Victims of Crime............................................................ 9
       The National Child Abuse and Neglect Data System ......................... 9
       The Adoption and Foster Care Reporting and Analysis System ......... 10

   Prior Reviews ..............................................................................10

FINDINGS AND RECOMMENDATIONS.............................................. 13

   I. ACTIVITIES FUNDED BY NCASAA SINCE 1993 ........................13
       Indirect Activities Funded by NCASAA .......................................... 16
       Awards to Subgrantees.............................................................. 16
       Recommendation ...................................................................... 18

   II. OUTCOMES FOR CASA CASES COMPARED TO NON-CASA
       CASES ...................................................................................19
       Length of Time in Foster Care ..................................................... 21
       Increased Provision of Services ................................................... 26
       Percentage of Cases Permanently Closed...................................... 28
       Achievement of Permanent Plan .................................................. 30
       Summary and Conclusion........................................................... 33
      Recommendation ...................................................................... 35

STATEMENT ON INTERNAL CONTROLS............................................ 36

STATEMENT ON COMPLIANCE WITH ............................................... 37

LAWS AND REGULATIONS .............................................................. 37

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 38

APPENDIX II - OIG SURVEY CONSOLIDATED RESPONSES .............. 42

APPENDIX III - OJP RESPONSE TO THE DRAFT REPORT ..................72

APPENDIX IV - NCASAA RESPONSE TO THE DRAFT REPORT ...........74

APPENDIX V - ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE THE REPORT......................... 74
                                  INTRODUCTION

      As required by Congress, the U.S. Department of Justice Office of the
Inspector General (OIG) conducted an audit of the National Court-Appointed
Special Advocate Association (NCASAA).1 The objectives of this audit, as
mandated by Congress, were to determine: (1) the types of activities the
NCASAA has funded since 1993, and (2) the outcomes in cases where
court-appointed special advocate (CASA) volunteers are involved as
compared to cases where CASA volunteers are not involved, including:

   •   the length of time a child spends in foster care;2

   •   the extent to which there is an increased provision of services;

   •   the percentage of cases permanently closed;3 and

   •   achievement of the permanent plan for reunification or adoption.4

Background

      In 1976, Superior Court Judge David Soukup of Seattle, Washington,
concluded that he was not obtaining sufficient relevant facts during case
hearings necessary to ensure that the long-term welfare of a child was being
represented. To address this concern, he developed the concept of

       1
           Pub. L. No. 109-162 (2006)
       2
           Generally, prior studies of the CASA program and the data tracked by the
U.S. Department of Health and Human Services (HHS) on children in the state and local
child protective services (CPS) system reported on children in out-of-home care rather than
children in foster care. The information reported on children in out-of-home care includes
all children in foster care, as well as children placed with a relative or legal guardian, who
was not a qualified foster parent. Since the prior studies and available HHS data did not
include information on only those children in foster care, in this report we considered all
children in out-of-home care to be in “foster care” for the purposes of addressing this
objective.
       3
         All state and local CPS cases are eventually permanently closed because even in
those cases for which permanent placement of the child was not achieved, the case is
closed when the child reaches the age of majority, is incarcerated, or dies. As a result, for
the purposes of this audit we defined permanent closure as those cases that had been
closed by CPS, whether due to permanent placement or any other reason, and the child had
not reentered the Child Welfare System (CWS) at anytime prior to the date the case data
was collected for this audit.
       4
         For each child in the CWS, a permanent plan for the placement of the child is
developed. The permanent plan outlines what will happen to the child upon resolution of
the cases. Generally, the permanent plan is either reunification with the parents or
adoption.



                                          -1-
recruiting and training community volunteers to represent the best interest
of a child in court proceedings. In 1977, the first CASA pilot program was
implemented in Seattle. The purpose of the CASA program is to ensure that
abused and neglected children receive high-quality, sensitive, effective, and
timely representation in court hearings to determine their guardianship.

       In 1978, the National Center for State Courts selected the Seattle
CASA program as the best national example of citizens participating in
juvenile justice, resulting in the replication of the program in courts across
the country. By 1982, it was clear that a national association was needed to
coordinate the 54 existing state and local CASA programs and provide
training and technical assistance.

National Court-Appointed Special Advocate Association

       In 1984, NCASAA, the national headquarters for CASA programs was
opened in Seattle. According to NCASAA’s web site, together with its state
and local members, its mission “is to support and promote court-appointed
special advocacy for abused and neglected children so they can thrive in
safe, permanent homes.” NCASAA provides leadership, training, technical
assistance, and subgrants to CASA programs across the country.
Additionally, NCASAA stages an annual conference, promotes CASA
programs through public awareness efforts, and provides counseling and
other resources to help start up new programs and to provide vital
assistance to existing programs. The state, local, and tribal CASA programs
are responsible for recruiting, training, and supporting volunteers in
advocating for abused and neglected children.

       At the time NCASAA was incorporated, there were 107 state and local
CASA programs in 26 states.5 As of 2005, there were 948 state, local, and
tribal CASA programs in 49 states that served an estimated 226,204
children. 6 As shown in Figure 1, CASA program coverage varies from state
to state.




       5
         These programs include both CASA volunteers and guardian ad litem (GAL)
volunteers, who are generally lawyers appointed by the court to represent children in abuse
or neglect cases. A CASA volunteer may also be a GAL or work in conjunction with a GAL.
       6
       North Dakota is the only state with a CASA program that is not a member of
NCASAA because it uses paid advocates rather than volunteers.



                                         -2-
FIGURE 1. PERCENTAGES OF COUNTIES SERVED BY CASA PROGRAMS




Source: Youngclarke Review7

      According to the NCASAA Annual Local Program Survey for 2005, an
estimated 226,204 children were served by an estimated 53,847 volunteers,
as shown in Table 1.

TABLE 1.    2005 CASA PROGRAM HIGHLIGHTS
              ACTIVITY OR EVENT                                     OUTCOME
 Number of CASA/GAL program offices                                     948
 Number of volunteers                                                53,847
 Children served                                                    226,204
 New volunteers trained                                              14,806
 New children assigned a CASA volunteer                              77,801
Source: NCASAA Annual Local Program Survey, 2005

      Additionally, according to the 2005 NCASAA Annual Survey, nearly
15,000 new volunteers were trained and nearly 80,000 new children were
assigned to a volunteer during 2005.




       7
         Youngclarke, Davin M. and Kathleen Ramos and Lorraine Granger-Merkle. "A
Systematic Review of the Impact of Court-Appointed Special Advocates," Journal of the
Center for Families, Children and the Courts, Vol. 5, 2004 (Youngclarke Review) p. 111.



                                         -3-
Court-Appointed Special Advocates

       A number of states have legal requirements that specify whether an
attorney or volunteer may be appointed as the Guardian ad Litem (GAL) to
represent a child in the CWS. Other states detail the roles and
responsibilities of the CASA volunteers, their qualifications and training, and
their rights and powers. However, a number of states provide greater
discretion to the local courts. The most common differences among states
involve the role and formal status of the volunteer, the forms of attorney
representation, the formal relationship between the volunteer and the
attorney for the child, and types of cases accepted.

      There are five general activities associated with the role of a CASA
volunteer:

   •   Fact finding and information gathering - CASA volunteers meet
       with and interview everyone connected with the child. They frequently
       visit with and observe the child, visit the homes of the child and the
       parent, contact caseworkers, and review case records. These activities
       help the advocates gain insight into what is best for a child, what kinds
       of services might be helpful, and what support is needed to move
       toward achieving the permanent plan.

   •   Legal representation - These activities must be performed by a
       CASA volunteer who is a licensed attorney. The activities include
       appearances at hearings, filing motions and other legal papers, and
       advising the child on legal issues. In this role, the CASA volunteer
       may make recommendations to the court regarding the permanent
       plan for placement of the child, services to be provided, and visitation
       issues.

   •   Negotiation and mediation - The CASA volunteer develops
       agreements and conditions between the parties as they pertain to the
       welfare of the child.

   •   Case monitoring - The CASA volunteer maintains contact with the
       child and other relevant parties, monitors the child’s special needs,
       and follows up on court orders.

   •   Resource brokering – The CASA volunteer works in the community
       to help children and their parents to obtain needed services.




                                    -4-
      Regardless of the parameters of the CASA volunteer’s activities within
the court system, NCASAA has provided some guiding principles that help
ensure the quality of the advocacy. Volunteers:

  •   must have access to legal support;

  •   must be independent;

  •   should be appointed to the case at the earliest possible time;

  •   should receive notice of all hearings, staffing, and other case
      conferences related to the child;

  •   should have complete access to all information related to the child and
      the child’s situation; and

  •   should have immunity from liability for performing their role in a
      responsible manner.

CASA Volunteer Application, Screening, and Selection

     According to NCASAA’s standards, all applicants who want to become
CASA volunteers are required to:8

  •   Complete a written application concerning education, training,
      employment, and experience in working with children.

  •   Submit three references, of which two must not be related to the
      applicant.

  •   Authorize federal, state, and local criminal, sex offender, and child
      neglect and abuse checks.

  •   Participate in interviews with program personnel.

      To become a CASA volunteer, applicants must be at least 21 years of
age and have successfully passed the application and screening process.
Before volunteers are assigned to a case, all screening must be completed
with written verification on file at the program office.




      8
          NCASAA, Standards for Local CASA/GAL Programs, 2006.



                                       -5-
CASA Volunteer Training

      State, local, and tribal CASA programs train volunteers using the
NCASAA’s national training curriculum or its equivalent. Training consists of
30 hours of required pre-service training and 12 hours of required annual
in-service training. Additionally, if the court served by the CASA program
allows, volunteers are required to observe an in-session abuse or neglect
proceeding before appearing in court for an assigned case.

Statistics on Child Abuse in the United States

      According to the U.S. Department of Health and Human Services
(HHS), in fiscal year (FY) 2004 an estimated 3 million children were alleged
to have been neglected or abused and were the subject of investigation or
assessment by state or local child protective services (CPS) agencies.9
Additionally, in FY 2004:

   •   Approximately 872,000 children were identified as victims of
       maltreatment.

   •   An estimated 1,490 children died as a result of child abuse or neglect.

   •   More than 80 percent of the children who died were 4 years old or
       younger.

     An HHS report, The Adoption and Foster Care Analysis and Reporting
System (AFCARS) Report No. 13, Preliminary FY 2005 Estimates, September
2006 (2005 AFCARS Report), estimated that as of September 30, 2005:10

   •   An estimated 513,000 children were in foster care.

   •   The average age of children in foster care was 10 years old and the
       average length of stay in foster care was 28.6 months.

   •   118,000 children were waiting adoption.


       9
        U.S. Department of Health and Human Services, Administration for Children, Youth
and Families, Children’s Bureau, Child Maltreatment 2004, (Washington, D.C.: U.S.
Government Printing Office, 2006).
       10
          U.S. Department of Health and Human Services, Administration for Children,
Youth and Families, Children’s Bureau, The AFCARS Report No.13, Preliminary FY 2005
Estimates, September 2006.




                                        -6-
      Further, according to the 2005 AFCARS report, in FY 2005
approximately 311,000 children entered foster care, while 287,000 exited
foster care.

Legislation

      Over the past 32 years, Congress has enacted the following legislation
related to protecting children from abuse and neglect.

   •   In 1974, the Child Abuse Prevention and Treatment Act (CAPTA)
       formally recognized the importance of providing independent
       representatives for children in court proceedings by mandating that
       each child have a guardian ad litem.

   •   The Adoption Assistance and Child Welfare Act of 1980 mandated a
       greater emphasis on ensuring that permanent placement is achieved
       for children in foster care and required that every 6 months juvenile
       and family courts review all cases involving abused or neglected
       children.

   •   CAPTA was amended by the Child Abuse Prevention, Adoption and
       Family Services Act of 1988. This Act directed the Secretary of HHS to
       establish a national data collection and analysis program, which
       became The National Child Abuse and Neglect Data System, for state
       child abuse and neglect reports.

   •   The Victims of Child Abuse Act of 1990 required that “a CASA shall be
       available to every victim of child abuse or neglect in the United States
       that needs such an advocate.”

   •   CAPTA was amended in 1996 mandating that states seeking federal
       funding under the Act must create citizen review panels, which provide
       citizen oversight to ensure attainment of state goals for protecting
       children from abuse and neglect.

   •   The Adoptions and Safe Families Act of 1997 shortened timelines to
       encourage the speedy adoption of children for whom reunification or
       guardianship is not an option.

Office of Justice Programs

      Since 1984, DOJ Office of Justice Programs (OJP) has worked to
improve the juvenile justice systems and assist crime victims. The Victims
of Child Abuse Act of 1990, as amended, authorized the OJP Office of


                                    -7-
Juvenile Justice and Delinquency Prevention (OJJDP) to administer a newly
created CASA grant program.

       The OJP Office for Victims of Crime (OVC) also provides funding
through the Tribal Court CASA Program, which assists in developing and
enhancing programs that provide volunteer advocacy for abused or
neglected Native American children. Additionally, CASA programs are also
eligible to receive Victims of Crime Act (VOCA) funding at the state level,
which provides support services to crime victims.

      OJP partners with the NCASAA to administer the CASA program and
provide funding, training, and technical assistance to state, local, and tribal
CASA programs. Since 1993, OJP has awarded NCASAA 15 grants totaling
$100.4 million, including 12 OJJDP grants totaling $98.52 million, and 3 OVC
grants totaling $1.88 million, as shown in Table 2.

TABLE 2. OJP GRANTS AWARDED TO NCASAA (MILLIONS)
      GRANT     AGENCY  BEGIN DATE  END DATE     TOTAL AWARD
 1994CHCXK001   OJJDP  01/01/1994  12/31/1996     $ 3.50
 1995CHFXK001   OJJDP  01/01/1994  02/24/1997         1.69
 1995VIGXK001    OVC   01/01/1995  06/30/2001         0.56
 1996CHNXK002   OJJDP  06/01/1996  05/31/1999         4.94
 1997CHVXK001   OJJDP  02/01/1997  10/31/2002        10.65
 1997CHVXK002   OJJDP  01/01/1997  12/31/1999         4.90
 1998CHVXK001   OJJDP  01/01/1998  12/31/2000         4.88
 1999CHVXK001   OJJDP  01/01/1999  12/31/2001         6.81
 2000CHVXK001   OJJDP  05/01/2000  12/31/2002         7.55
 2000VRGX0113    OVC   08/01/2000  06/30/2003         0.35
 2001CHBXK001   OJJDP  05/01/2001  06/30/2004         7.81
 2002CHBXK001   OJJDP  04/01/2002  09/30/2006        15.38
 2002CHBXK002   OJJDP  05/01/2002  12/31/2004         7.81
 2002VIGX0003    OVC   09/01/2002  08/31/2006         0.97
 2003CHBXK005   OJJDP  05/01/2003  12/31/2006        22.60
    TOTAL                                         $100.40
Source: Office of Justice Programs
Office of Juvenile Justice and Delinquency Prevention

      The mission of OJJDP is to provide national leadership, coordination,
and resources to prevent and respond to juvenile delinquency and
victimization. OJJDP supports states and communities in their efforts to
develop and implement effective and coordinated prevention and
intervention programs, and to improve the juvenile justice system so that it
protects public safety, holds offenders accountable, and provides treatment


                                     -8-
and rehabilitative services tailored to the needs of juveniles and their
families. Additionally, OJJDP administers the distribution of grants to the
CASA program, authorized by the Victims of Child Abuse Act of 1990, as
amended, which directs that a CASA shall be available to every victim of
child abuse or neglect if needed.

       As stated previously, OJP partners with NCASAA to administer the
distribution of grants to the CASA program. Since 1993, OJJDP has awarded
NCASAA 12 grants totaling $98.52 million. In turn, NCASAA uses a portion
of this funding to provide subawards to state, local, and tribal CASA
programs on a competitive basis. The subgrants awarded by NCASAA are
used for: (1) new program development, (2) expansion programs, (3) state
organizations, (4) urban program demonstration, and (5) increasing the
diversity of CASA staff and volunteers to better meet the needs of children
from diverse communities. In awarding subgrants, NCASAA stated that it
emphasizes increasing the availability of advocates in communities where
existing services do not meet the needs of families and children.

Office for Victims of Crime

       The Office for Victims of Crime (OVC) was formally established in 1988
as a result of an amendment to the 1984 Victims of Crime Act. OVC
provides leadership and funding on behalf of crime victims. In addition, OVC
provides funding for the Tribal Court CASA Program mentioned previously,
which is also administered by NCASAA. Since 1993, OVC has awarded
NCASAA three grants totaling $1.88 million. CASA programs are also eligible
to receive Victims of Crime Act (VOCA) funding at the state level. VOCA
victim assistance grant funds support services to victims of crime. However,
not all children represented by a CASA volunteer are victims of crime.

The National Child Abuse and Neglect Data System

      The 1988 amendment to the Child Abuse Prevention and Treatment
Act directed HHS to establish a national data collection and analysis program
through its Children’s Bureau in the Administration for Children, Youth and
Families. The data is then input into the National Child Abuse and Neglect
Data System (NCANDS).

       The NCANDS collects case-level data on all children who are involved
in an investigation or assessment by a CPS agency. The data are submitted
voluntarily, and used for an annual Child Maltreatment report, which is
published each spring. In addition, data are used in several efforts by the
Children's Bureau to measure the impact and effectiveness of CPS agencies.
The NCANDS data includes information on:


                                   -9-
   •   the characteristics of referrals of abuse or neglect that are made to
       CPS agencies,

   •   the types of maltreatment that are alleged,

   •   the dispositions (or findings) of the investigations,

   •   the risk factors of the child and the caregivers,

   •   the services that are provided, and

   •   the perpetrators.

The Adoption and Foster Care Reporting and Analysis System

       The HHS Adoption and Foster Care Reporting and Analysis System
(AFCARS) collects case-level information for placement, care, or supervision
on all children in foster care for whom the state CWS agencies are
responsible. In addition, AFCARS contains data on children who are adopted
under the auspices of the state's CWS. States are required to submit
AFCARS data semi-annually to the HHS’ Administration for Children, Youth
and Families. The semi-annual AFCARS reports cover the periods October 1
through March 31, and April 1 through September 30. The AFCARS report
provides information on the:

   •   number of children in foster care,

   •   number of children who entered foster care that year,

   •   number of children who exited foster care that year,

   •   number of children awaiting adoption at year end and months in foster
       care,
   •   number of children in foster care with parental rights terminated and
       the months since parental rights were terminated, and

   •   number of children adopted with public agency involvement.

Prior Reviews

       Since inception of NCASAA in 1982, over 70 reviews, studies, and
surveys of the CASA program have been conducted by a wide range of
institutions, agencies, individuals, or other organizations. Out of the 70 prior
reports, we identified two studies of the CASA program that in our judgment


                                    - 10 -
provided the most comprehensive and current information related to the
outcome objectives mandated by Congress for this audit.

   •   Youngclarke, Ramos, and Granger-Merkle, A Systematic Review of the
       Impact of Court-Appointed Special Advocates, 2004 (Youngclarke
       Review). The Youngclarke Review summarized the findings of 20 prior
       studies that assessed the impact of CASA programs. In conducting the
       review, almost 70 prior studies of CASA programs were analyzed, but
       only 20 met the criteria for inclusion in the Youngclarke Review.11 The
       review compares the combined average outcome measures reported in
       the prior studies for cases involving a CASA volunteer to those for
       which a CASA volunteer was not appointed.

   •   Caliber Associates, Evaluation of CASA Representation, 2004, (Caliber
       Study).12 The Caliber Study combines data from the NCASAA’s
       management information systems and data collected through the
       National Survey of Child and Adolescent Well-Being, a federally
       sponsored national survey of children and their families. The study
       compares outcome measures for cases involving a CASA volunteer to
       those for which a CASA volunteer was not appointed.

      The results reported in the Youngclarke Review and Caliber Study that
pertain to the objectives of this audit are discussed in the Findings and
Recommendations sections of this report.

       In addition to the Youngclarke Review and the Caliber Study, we
identified two surveys that provided useful information in understanding the
relationship between CASA volunteers and judges, attorneys, child welfare
workers, and both biological and adoptive parents. While these surveys do
not speak directly to the audit objectives, they provide useful insight into the
effectiveness of CASA programs.

       11
          Although the findings of 20 previous studies on CASA programs were included in
the Youngclarke Review, none of the studies addressed all of the measurement outcomes.
Therefore, the summary data for each outcome measure is based on a different number of
studies and occasionally includes different studies altogether. Additionally, the outcome
measures summarized in the Youngclarke Review are separated into two categories: the
combined-all category, which includes all studies with relevant data, and the
combined-levels 1 and 2 category, which includes only those studies that were determined
to have the strongest levels of evidence ratings. For the purposes of this report we only
used the summary outcome measures reported for the combined-level 1 and 2 category
because the studies included in this analysis were determined to have the highest levels of
evidence.
       12
          It should be noted that the Caliber Study was funded in part by NCASAA. Funding
was also provided by the Packard Foundation.



                                         - 11 -
•   Pat Litzelfelner, Ph.D., University of Kentucky, College of Social Work,
    National CASA Consumer Satisfaction Survey, September 2003. This
    study found that judges and attorneys in the CWS expressed the
    highest overall satisfaction with CASA programs. Additionally, both
    the biological parents and the foster parents spoke highly of the CASA
    volunteers.

•   Organizational Research Services, Evaluation of Court-Appointed
    Special Advocates/Guardians Ad Litem Volunteer Impact, September
    2005 (Organizational Research Services Study). This study found that
    CASA volunteers: (1) are very effective in supporting court processes
    through a wide range of activities, (2) perform activities that have
    been very useful in making decisions concerning case outcomes,
    (3) tend to be assigned to the most difficult cases, and (4) provide
    recommendations that are frequently incorporated into court orders.




                                 - 12 -
                 FINDINGS AND RECOMMENDATIONS

I.    ACTIVITIES FUNDED BY NCASAA SINCE 1993

      We found that NCASAA did not retain any accounting records or
      supporting documentation for expenditures occurring prior to
      1995. Additionally, although NCASAA retained some of the
      accounting records and supporting documentation for 1995
      through 1997, the information was incomplete. According to
      federal regulations, NCASAA was not required to retain
      accounting records related to grant expenditures for these
      periods. Because the accounting information for these periods
      was not retained, we are unable to provide information on the
      activities funding by NCASAA from calendar years 1993 through
      1997. However, from January 1, 1998, through June 30, 2006,
      NCASAA expended a total of $88.86 million in funds received
      through OJP grant programs and $14.24 million in funds
      received from non-federal sources. NCASAA expended
      93.15 percent of its OJP grant funding on activities that directly
      supported CASA programs. Conversely, only 6.85 percent of its
      OJP grant funding was for general and administrative support
      activities, which is significantly less than the 16.3 percent
      average administrative costs for human services non-profit
      organizations.13

      To determine the types of activities funded by NCASAA since 1993, we
requested that NCASAA provide accounting data from January 1, 1993,
through June 30, 2006, for all expenditures from both federal and private
funding sources. We found that NCASAA did not retain any accounting
records or supporting documentation for expenditures occurring prior to
1995. Additionally, although NCASAA retained some of the accounting
records and supporting documentation for 1995 through 1997, the
information was incomplete. According to federal regulations
(28 C.F.R. § 70) grantees are only required to retain financial records,
supporting documents, statistical records, and all other records pertinent to
Department of Justice grants for a period of 3 years from the date of
submission of the final financial report. Because, NCASAA was not required
to and did not retain the accounting records and supporting documentation

      13
          Thomas H. Pollak and Mark Hager, The Urban Institute, and Patrick Rooney,
Indiana University, “Understanding Management and General Expenses of Non-profits,” an
Overhead Cost Study Working Paper presented at the 2001 Annual Meeting of the
Association for Research on Non-profit Organizations and Voluntary Actions, New Orleans,
LA, 2001 (Pollak and Hager, 2001).



                                       - 13 -
for its expenditures occurring prior to 1998, we cannot provide information
regarding activities funded by NCASAA prior to that time in this report.

       However, we were able to obtain information related to the activities
funded by NCASAA from January 1, 1998, through June 30, 2006. Table 3
illustrates the activities funded by NCASAA during this period from both
federal and non-federal funding sources.

TABLE 3.      NCASAA EXPENDITURES BY ACTIVITY, JANUARY 1, 1998
              THROUGH JUNE 30, 2006 (MILLIONS)14
                                                                             PERCENT OF
                                                 PERCENT OF         TOTAL      TOTAL
                                     TOTAL         TOTAL        FUNDING       FUNDING
                                    FEDERAL       FEDERAL     NON-FEDERAL   NON-FEDERAL
        ACTIVITIES FUNDED           FUNDING       FUNDING       SOURCES       SOURCES
 DIRECT ACTIVITIES
   Awards to Subgrantees            $ 57.16        64.33%       $    3.29      23.10%
   Training & Technical
     Assistance                      13.63         15.34%         4.71        33.08%
   Membership & Public Outreach      11.98         13.48%         4.36        30.62%
   Subtotal                         $82.77        93.15%        $12.36        86.80%
 SUPPORT ACTIVITIES
 General & Administrative           $ 6.09          6.85%      $  0.91         6.39%
 Fundraising                           0.0          0.00%         0.97         6.81%
   Subtotal                         $ 6.09         6.85%        $ 1.88        13.20%
     TOTAL ACTIVITIES
         FUNDED15                   $88.86          100%        $14.24         100%
Source: NCASAA general ledgers

      As shown in Table 3, from January 1, 1998, through June 30, 2006,
NCASAA expended $88.86 million in funds received through OJP grant
programs and $14.24 million in funding from non-federal sources, including
private foundations. NCASAA expended $82.77 million (93.15 percent) of its
OJP grant funding on activities that directly supported CASA programs. The
direct activities funded by NCASAA include:

   •   $57.16 million (64.33 percent) on awards to subgrantees to support
       state and local CASA programs,

   •   $13.63 million (15.34 percent) on training and technical assistance for
       state and local CASA programs, and

       14
         The amounts reported in this table reflect the activities funded by NCASAA as
determined by our audit.
       15
         Differences in total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.



                                        - 14 -
   •   $11.98 million (13.48 percent) on membership and public outreach.

       We also found that NCASAA expended $12.36 million (86.80 percent)
of its funding from all non-federal sources on activities that directly
supported CASA programs. Further, NCASAA only expended about
$1 million on fundraising activities, which was 6.81 percent of its funding
from all non-federal sources.

       During our review of the accounting records, we found that from 1999
through 2006, NCASAA erroneously recorded that it had allocated $1.23
million of its OJP grant funds to fundraising activities. Table 4 illustrates the
OJP grant funds that were erroneously recorded.

                 TABLE 4.  AMOUNTS ERRONEOUSLY
                           RECORDED AS ALLOCATED TO
                           FUNDRAISING
                     CALENDAR YEAR      AMOUNT
                         1999         $    74,710
                         2000              79,240
                         2001              86,659
                         2002             147,608
                         2003             219,626
                         2004             289,113
                         2005             223,653
                         2006             110,556
                         TOTAL        $1,231,165
                  Source: NCASAA general ledgers

      Based on our review of NCASAA’s accounting records and supporting
documentation, we determined the $1.23 million recorded as spent on
fundraising was the result of an accounting error and that these funds were
spent on other program activities. Therefore, NCASAA did not use OJP grant
funds for fundraising activities. We informed NCASAA of the error during our
review, and it has since been corrected for 2006. Nonetheless, we are
recommending that OJP ensure that NCASAA establishes a methodology for
allocating indirect costs so that federal funds are not charged to unallowable
cost categories in the future.

       We also found that in 1998 and 1999 NCASAA failed to input a
program accounting code identifying the program activity for expenses
totaling about $1.5 million. We informed NCASAA of the error during our
review, and these amounts have since been reallocated to the appropriate
program activities.



                                    - 15 -
Indirect Activities Funded by NCASAA

       As shown previously in Table 3, we found that NCASAA expended
$6.09 million (6.85 percent) of its OJP grant funding and only $1.88 million
(13.20 percent) of its funding from all non-federal sources on general and
administrative support activities. NCASAA expended a total of $7.97 million
(7.73 percent) of its total funding on general and administrative costs. As a
result, over 90 percent of the funding received by NCASAA is expended on
activities that directly supported CASA programs.

      We found that NCASAA’s costs related to general and administrative
support activities are significantly less than average administrative costs for
human services non-profit organizations. As shown in Table 5, according to
Pollak and Hager, 2001, the average percentage of funds expended on
indirect activities for human services non-profit organizations and all
non-profit organizations were 16.3 percent and 18.1 percent respectively.

TABLE 5.    MANAGEMENT AND GENERAL EXPENSES FOR NON-PROFIT
            ORGANIZATIONS
                                                AVERAGE
                                  NUMBER      PERCENTAGE OF
          NON-PROFIT MISSION     REPORTING   INDIRECT COSTS
Arts, culture, & humanities         11,821       23.4%
Education                           15,481       17.7%
Environment                          4,066       18.5%
Health                              19,786       17.2%
Human Services                      43,988       16.3%
International                        1,201       16.9%
Supporting                          15,332       16.3%
Other public/societal benefit       24,350       20.7%
TOTAL                             136,025        18.1%
Source: Pollak and Hager, 2001

Awards to Subgrantees

      From January 1, 1998, through June 30, 2006, NCASAA expended
$88.87 million in funds received through OJP grant programs, of which
$57.16 million (64.3 percent) was used for awards to subgrantees in support
of state and local CASA programs. Table 6 illustrates the types of grant
programs funded by NCASAA through subawards of OJP funding.




                                   - 16 -
            TABLE 6.  NCASAA AWARDS TO SUBGRANTEES,
                      JANUARY 1, 1998, THROUGH
                      JUNE 30, 2006 (MILLIONS)
               GRANT PROGRAM           AMOUNT AWARDED
            Expansion                     $ 47.46
            Planning                         3.40
            State Organizations              3.34
            Tribal                           0.49
            Start-up                         0.15
            Other                            0.02
            TOTAL                         $54.86
            Source: NCASAA general ledgers

      The subgrants funded by NCASAA included:

  •   $47.46 million for expansion programs to increase volunteers and
      expand the number of children being served by CASA programs,

  •   $3.4 million for planning programs to assist in the planning for new
      CASA programs,

  •   $3.34 million for state organization programs to assist state
      organizations with the delivery of core services to local programs,

  •   $494,992 to fund tribal programs to establish new or expand existing
      tribal CASA programs,

  •   $153,202 awarded to subgrantees for start-up programs to establish
      CASA programs where no program currently exists, and

  •   $18,000 awarded to subgrantees for other purposes, including
      reimbursement for expenses related to participation in the Caliber
      Study and changing the CASA logo.

     Table 7 illustrates the subgrantee expenditures of OJP funding received
through NCASAA subgrants.




                                    - 17 -
TABLE 7.    SUBGRANTEE EXPENDITURES JANUARY 1,
            1998, THROUGH JUNE 30, 2006 (MILLIONS)
  GRANT PROGRAM           AMOUNT EXPENDED       PERCENT OF TOTAL
 Personnel                  $ 35.26                  71.7%
 Other                         3.86                   7.9%
 Travel                        3.41                   6.9%
 Rent & Utilities              2.19                   4.4%
 Training                      1.54                   3.1%
 Supplies                      1.06                   2.2%
 Printing                      0.96                   2.0%
 Equipment                     0.90                   1.8%
        16
 TOTAL                      $49.18                  100%
             Source: Subgrantee expenditures reported to NCASAA

      As shown in Table 7, generally the subgrantees expended the OJP
funding received through NCASAA subawards on direct program activities,
including personnel costs, travel to meetings with children and other
relevant parties, court hearings and training, and training costs.

Recommendation

      We recommend that OJP:

1.    Ensures that NCASAA establishes a methodology for allocating indirect
      costs so that federal funds are not charged to unallowable cost
      categories.




      16
           The differences between the total subgrantee expenditures shown in Table 7 and
the total NCASAA subawards shown in Table 6 resulted from the fact that some of the
subgrants were still open at the time of our review and not all of the funding had been
expended.



                                        - 18 -
II.       OUTCOMES FOR CASA CASES COMPARED TO NON-CASA CASES

          We found that OJP had established outcome measures for its
          CASA grant programs. However, the outcome measures
          established by OJP do not address the effectiveness of the
          programs in meeting the needs of children in the CWS or the
          outcome measures identified by Congress. Further, with the
          exception of the length of time a child spends in foster care, HHS
          and NCASAA do not report on data that specifically addresses
          the outcome measures identified by Congress for this audit.
          Nonetheless, based on the available data and the results of an
          OIG survey, we found that in cases where CASA volunteers are
          involved as compared to cases where CASA volunteers are not
          involved: (1) children spent more time in foster care as result of
          the fact that the children were generally already in foster care
          before a CASA volunteer was assigned; (2) children and their
          parents were ordered by the courts to participate in more
          services and received more services; (3) the case was more
          likely to be “permanently closed,” i.e., the children were less
          likely to reenter the CPS system; and (4) children were more
          likely to be adopted and less likely to be reunified with their
          parents. Although the outcomes for cases involving a CASA
          volunteer appear to be less favorable in some instances than
          cases not involving a CASA volunteer, this may be a result of the
          fact that cases involving a CASA volunteer typically involve the
          most serious cases of maltreatment.

      As stated previously, Congress directed the OIG to examine the
outcomes in cases where CASA volunteers are involved as compared to
cases where CASA volunteers are not involved, including:

      •   the length of time a child spends in foster care;

      •   the extent to which there is an increased provision of services;

      •   the percentage of cases permanently closed; and

      •   achievement of the permanent plan for reunification or adoption.

       We found that with the exception of the length of time a child spends
in foster care, HHS does not require state and local CPS programs to report
data that specifically addresses the outcome measures mandated by
Congress for this audit. NCASAA also does not request that its CASA
program members provide data that specifically addresses the outcome


                                       - 19 -
measures required for this audit. As a result, although we obtained data for
the state and local CASA programs that we used to address the audit
objectives, we were not always able to obtain comparison data for cases that
did not involve a CASA volunteer.

       We also found that OJP had established outcome measures for its
CASA grant programs. However, the outcome measures established by OJP
do not address the effectiveness of the programs in meeting the needs of
children in the CWS. Additionally, none of the outcome measures
established by OJP address the outcome measures mandated for this audit.
In our judgment, OJP should develop outcome performance measures for
the CASA grant programs to determine the effectiveness of the programs in
meeting the needs of children in the CWS. As appropriate, these outcome
measures should correspond with the data required by HHS for state and
local CPS agencies, so that OJP has a basis for comparing the effectiveness
of its CASA grant programs.

       Additionally, at any point in time only a small percentage of the
participating state, local, and tribal CASA programs have open subgrants of
OJP grant funding awarded by NCASAA. For those CASA programs that do
not have subgrants, NCASAA can request, but not require, that they provide
outcome data. Nonetheless, for its 2005 Annual Program Survey, NCASAA
received data on children from 90 percent of its CASA program members.

      Because of the lack of data on the objectives for this audit, to
determine the outcomes in cases where CASA volunteers are involved as
compared to cases where CASA volunteers are not involved, we relied on the
following:

  •   prior studies of the NCASAA program, including the Youngclarke
      Review and the Caliber Study, which we felt provided the most
      comprehensive and current information related to the objectives
      mandated by Congress;

  •   data from the state and local CASA program case-tracking databases
      (CASA Data Request), which we compared to national data maintained
      by HHS;

  •   data from an OIG survey distributed to all state, local, and tribal CASA
      program offices; and




                                  - 20 -
   •   the most recent AFCARS data available at the time our analysis was
       conducted on all children in the state and local CPS for comparison
       purposes.17

      For the CASA Data Request, NCASAA distributed our request for data
on the four outcome measures from the case management systems to
731 state, local, and tribal CASA programs. We received data related to
time in foster care, permanent case closure, and the case outcomes
including adoption and reunification from 192 respondents representing
339 programs. However, we generally did not receive data on the number
of services ordered by the courts and received by children and their parents
because it was not generally tracked in the case management systems.

       Additionally, we distributed a nationwide survey to state, local, and
tribal CASA programs offices requesting information on the four outcome
measures, as well as additional information on the: (1) basis for the
responses related to the four outcome measures in our survey,
(2) effectiveness of NCASAA, and (3) data reported in the Caliber Study,
which was the most recent study available related to the outcome measures.
Out of the 945 CASA programs to which the OIG survey was sent, we
received 491 responses. The consolidated results of the OIG survey are
detailed in Appendix II.

Length of Time in Foster Care

      We found that the length of time a child spends in foster care is longer
for cases involving a CASA volunteer as compared to cases that did not
involve a CASA volunteer. As shown in Table 8, the Youngclarke Review and
Caliber Study found that the average length of time a child spends in foster
care is between 3.9 months and 1.5 months longer for cases involving a
CASA volunteer.

TABLE 8.    LENGTH OF TIME IN FOSTER CARE PRIOR STUDIES
                                 TIME IN FOSTER CARE (MONTHS)
                                                        DIFFERENCE
             STUDY             CASA       NON-CASA       FOR CASA
   Youngclarke Review           23.9         20.0         + 3.9
   Caliber Study                10.2          8.7         + 1.5
Source: Youngclarke Review and Caliber Study



       17
           It should be noted that HHS does not collect separate data on CASA cases, rather
the AFCARS data includes all CASA and non-CASA cases related to children in the state and
local CPS.



                                        - 21 -
       It should be noted that both the Youngclarke Review and Caliber Study
concluded that there was no significant difference in the length of time a
child spends in foster care for cases involving a CASA volunteer as compared
to cases that did not involve a CASA volunteer.

       Based on the results of the CASA Data Request and the OIG survey,
we also found that the length of time a child spends in foster care is longer
for cases involving a CASA volunteer as compared to the national average
for all CPS cases, including CASA cases.18 As shown in Table 9, based on the
CASA Data Request and the OIG survey average length of time a child
spends in foster care is between 2 months and 1.2 months longer for cases
involving a CASA volunteer than the national average for all CPS cases.

TABLE 9.      LENGTH OF TIME IN FOSTER CARE OIG ANALYSIS
                                   TIME IN FOSTER CARE (MONTHS)

                                                                           DIFFERENCE
                                                                    19
           SURVEY                          CASA           AFCARS           FOR CASA
   CASA Data Request                        15.8            13.8              + 2.0
   OIG Survey20                             17.2            16.0              + 1.2
Source: CASA Data Request, OIG survey, 2004 and 2005 AFCARS Report

       However, as discussed in the following sections, although children in
cases involving a CASA volunteer were on average in foster care longer, in
our judgment using the length of time in foster care as an outcome measure
is not necessarily an indicator of the effectiveness of CASA programs.

Types of Cases

      According to the Caliber Study, cases assigned to a CASA volunteer
frequently involve the most serious cases of maltreatment and the children

       18
           For the CASA program case system data request and the OIG survey, we used the
weighted average of the length of time a child spends in foster care where a CASA volunteer
is involved.
       19
           For the CASA Data Request, we compared the weighted average of the length of
time a child spends in foster care where a CASA volunteer is involved to the 2004 AFCARS
data which was the most recent data available at the time our analysis was conducted. It
should be noted that AFCARS data includes all CASA and non-CASA cases related to children
in the state and local CPS. For the OIG survey, we compared the weighted average of the
length of time a child spends in foster care where a CASA volunteer is involved to the 2005
AFCARS data.
       20
         The weighted average number of months in foster care that was calculated for the
OIG survey is based on the number of respondents rather than children.



                                        - 22 -
were more at risk. As a result, for the majority of cases involving a CASA
volunteer, the child was placed in foster care much more frequently than for
cases not referred to a CASA program, as shown in Table 10.

   TABLE 10.    PERCENTAGE OF CHILDREN PLACED IN FOSTER CARE
                                  PERCENT OF CHILDREN
                                    IN FOSTER CARE
                             WITH CASA        WITHOUT CASA
          CASE STATUS        VOLUNTEER           VOLUNTEER
     Closed Cases               89%                 18%
     Open Cases                100%                 45%
   Source: Caliber Study

      As shown in Table 10, the Caliber Study indicates that for closed
cases, children in cases involving a CASA volunteer were almost 5 times
more likely to be placed in foster care as compared to children in cases that
did not involve a CASA volunteer. Further, for open cases, children in cases
involving a CASA volunteer were more than twice as likely to be placed in
foster care than children in cases not involving a CASA volunteer.

       The Caliber Study also cited the Calkins and Millar Study, which they
felt contained the strongest study methodology related to this outcome
measure because the sample was based on CASA and non-CASA children
who were equivalent in the severity of their abuse histories.21 Additionally,
the Calkins and Millar Study included only those children for which a CASA
volunteer was assigned early in the case. The Calkins and Millar Study
found that for children with similar case histories, the children in cases
involving a CASA volunteer spent on average 31 months in foster care as
compared to 40 months for children in cases that did not involve a CASA
volunteer. The Calkins and Millar Study concluded that there was a
significant reduction in the length of time in foster care (9 months) for cases
involving a CASA volunteer.

      Finally, The Organizational Research Services Study also concluded
there is a general consensus (over 80 percent of respondents) that judges
tend to assign the most difficult cases to CASA volunteers.




       21
          Calkins, Cynthia A. & Murray Millar. “The Effectiveness of Court Appointed Special
Advocates to Assist in Permanency Planning,” Child and Adolescent Social Work Journal,
Vol. 16, #1, February 1999, pp. 37-45 (Calkins Millar Study).



                                        - 23 -
Time in Foster Care Prior to Assignment of a CASA Volunteer

      Based on the results of the OIG survey, we found that the majority of
respondents (51 percent) estimated that on average 81 to 100 percent of
the children in cases involving a CASA volunteer were placed in foster care
at some time while in the CWS. Additionally, the majority of respondents
(54 percent) estimated that on average 81 to 100 percent of the children in
cases involving a CASA volunteer were placed in foster care prior to the time
that the case was referred to the CASA program office by the court, as
shown in Table 11.

TABLE 11.   ESTIMATED PERCENTAGE OF CHILDREN IN FOSTER CARE
            BASED ON THE OIG SURVEY
                 NUMBER OF RESPONDENTS   % OF TOTAL RESPONDENTS
   ESTIMATED    CHILDREN IN CHILDREN IN CHILDREN IN CHILDREN IN
   PERCENT OF   FOSTER CARE FOSTER CARE FOSTER CARE FOSTER CARE
  CHILDREN IN   AT ANY TIME   PRIOR TO  AT ANY TIME    PRIOR TO
  FOSTER CARE   IN THE CWS     CASA     IN THE CWS      CASA
0-20 percent        48           56          12%           14%
21-40 percent       29           24           7%            6%
41-60 percent       47           43          11%           10%
61-80 percent       77           66          18%           16%
81-100 percent     209          225          51%           54%
TOTAL             410           414        100%          100%
Source: OIG survey

      In the CASA Data Request, we asked CASA programs nationwide to
provide data from their case management systems related to the total
length of time children were in foster care from the day they entered the
CWS and from the time a CASA volunteer was assigned. As shown in
Table 12, based on the results of the CASA Data Request, we determined
that for cases involving a CASA volunteer, the child was in foster care on
average 15.8 months while in the CWS. However, the child was in foster
care on average 10.3 months during the time that a CASA volunteer was
assigned to the case.




                                  - 24 -
TABLE 12.    COMPARISON OF CHILDREN WHO EXITED FOSTER CARE
             IN 2004
                            CASA DATA REQUEST
                       TOTAL TIME IN     TIME IN
                        FOSTER CARE   FOSTER CARE ALL CHILDREN
                       WHILE IN THE   AFTER CASA  (2004 AFCARS
  TIME IN FOSTER CARE       CWS        ASSIGNMENT    REPORT)
< 1 Month                   3.2%          17.2%       18.0%
1 to 5 Months              14.1%          28.2%       16.0%
6 to 11 Months             20.8%          17.8%       16.0%
12 to 17 Months            20.5%          13.7%       12.0%
18 to 23 Months            13.5%           8.1%        9.0%
Cumulative Total          72.1%          85.0%       71.0%
24 to 29 Months             8.9%           6.4%        6.0%
30 to 35 Months             5.7%           3.1%        5.0%
3 to 4 Years                5.9%           3.1%       10.0%
Over 4 Years                7.4%           2.4%        8.0%
WEIGHTED AVERAGE       15.8 MONTHS    10.3 MONTHS  13.8 MONTHS
Source: CASA Data Request and 2004 AFCARS report estimates

      Additionally, as shown in Table 12, for cases involving a CASA
volunteer, the child was in foster care on average 5.5 months (15.8 months
minus 10.3 months) before a CASA volunteer was assigned.

      The OIG survey also asked that the CASA program offices provide
information related to the length of time children were in foster care from
the day they entered the CWS until a CASA volunteer was assigned and from
that point forward. As shown in Table 13, based on the results of the OIG
survey, we determined that for cases involving a CASA volunteer, the child
was in foster care on average 4.5 months prior to being assigned a CASA
volunteer and 12.7 months after a CASA volunteer was assigned.




                                    - 25 -
   TABLE 13.   TIME IN FOSTER CARE BASED ON THE 2006 OIG
               SURVEY
                                         OIG SURVEY
                         FOSTER CARE PRIOR      FOSTER CARE AFTER
                        TO CASA ASSIGNMENT      CASA ASSIGNMENT
       TIME IN CARE      (NO. OF RESPONDENTS)   (NO. OF RESPONDENTS)
   ≤ 6 months                   341                      37
   7-12 months                    50                   156
   13-18 months                   15                   146
   19-24 months                    6                     51
   > 24 months                     3                     18
          TOTAL                 415                    408
   WEIGHTED AVERAGE         4.4 MONTHS            12.3 MONTHS
   Source: OIG survey

       According to NCASAA management, reducing the amount of time in
foster care is generally considered a favorable outcome. However, the
actual placement outcome, i.e., adoption, reunification, permanent
placement with a relative, emancipation, and guardianship, is more critical.
However, NCASAA management believes that if necessary, it is better for a
child to spend more time in foster care than risk a poor permanent
placement.

       Additionally, the respondents to the OIG survey who stated that
children in cases involving a CASA volunteer were more likely to be placed in
foster care, based their conclusion on the fact that the children were already
in foster care prior to being referred to the CASA program. Further, the
respondents who stated that children in cases involving a CASA volunteer
were more likely to be in foster care longer based their conclusion on the
fact that volunteers focus on achieving permanency. Therefore, the primary
focus is on a successful permanent placement, rather than on closing the
case as quickly as possible.

Increased Provision of Services

       According to NCASAA, a significant factor in determining a final
placement outcome involves the availability and effectiveness of services for
both the child and the parents. One of the duties of a CASA volunteer is to
make recommendations to the court of services needed for both children and
their parents. Examples of services ordered by the court for children include
mental health, medical treatment, and training in independent living if
children are close to the age of majority. Services ordered by the court for
parents also include mental health, drug, and alcohol treatment, as well as
training on basic health and domestic violence.


                                  - 26 -
       The Youngclarke Review and Caliber Study both included the number
of services ordered for children and the parents of children in cases involving
a CASA volunteer as compared to cases not involving a CASA volunteer.
This information was obtained from actual CASA, CPS, and court case files
and through interviews of CASA and CPS officials. Based on the Youngclarke
Review and the Caliber Study, on average between 2.1 and 3.1 additional
services were ordered by the court for children and the parents of children in
cases involving a CASA volunteer, as shown in Table 14.

TABLE 14.     NUMBER OF SERVICES ORDERED FOR CHILDREN AND
              PARENTS
                               NUMBER OF SERVICES
                                    ORDERED        DIFFERENCE
        STUDY OR SURVEY        CASA      NON-CASA  FOR CASA
   Youngclarke Review           9.0         6.9      + 2.1
   Caliber Study               19.1        16.0      + 3.1
Source: Youngclarke Review, Caliber Study, OIG survey

      Based on the Youngclarke Review and Caliber Study, for cases
involving a CASA volunteer, significantly more services on average were
ordered by the court for children and their parents. In our judgment, this is
an indication that the CASA program is effective in identifying the needs of
children and parents in the CWS.

      The Caliber Study also reported on the types of services and
percentage of services received by children and their parents for cases
involving a CASA volunteer as compared to non-CASA cases. The Caliber
Study found that, mental health and medical services were significantly
more likely to be received by children in cases involving a CASA volunteer as
compared to cases not involving a CASA volunteer. This may be an
indication that the types of cases referred to CASA programs involve the
most serious types of maltreatment. Additionally, the Caliber Study found
that services in the areas of health care, alcohol and drug, legal, and family
support were significantly more likely to be received by parents of children
with a CASA volunteer than those without one. This may also be an
indication that the types of cases referred to CASA programs involve the
most serious types of maltreatment.

       The number of services ordered for children and the parents of
children in the CWS is not an outcome that is generally tracked by state,
local, and tribal CASA programs in their case management systems.
Therefore, we were unable to obtain sufficient data related to this outcome
measure from the CASA Data Request.



                                      - 27 -
      Based on the OIG survey, we found that on average 8.1 services were
ordered for the children and parents of children in cases involving a CASA
volunteer. However, HHS does not require state and local CPS programs to
report data on the number of services ordered. As a result, we were unable
to compare the information we obtained from the OIG survey to the national
average.

      In the OIG survey, 95 percent of the respondents stated that more
services were ordered for children in cases involving a CASA volunteer. The
general comment provided by the respondents as to why more services were
ordered was that the attention and time the volunteers spend with the
children allows them to better identify the services needed.

       Additionally, in the OIG survey 89 percent of the respondents stated
that more services were ordered for parents of children in cases involving a
CASA volunteer. The general comment provided by the respondents as to
why more services were ordered was that it is in the best interest of the
child to have more services provided to parents in order for there to be a
successful reunification.

Percentage of Cases Permanently Closed

      All state and local CPS cases are eventually permanently closed, even
those cases for which permanent placement of the child was not achieved,
when the child reaches the age of majority, is incarcerated, or dies. As a
result, for the purposes of this audit we defined permanent closure as those
cases that had been closed for any reason and the child had not reentered
the CWS at anytime prior to the date the case data was collected.

      The Youngclarke Review found that cases involving a CASA volunteer
were more likely to be “permanently closed” as compared to cases not
involving a CASA volunteer. Specifically, the review found that only
9 percent of children in cases involving a CASA volunteer reentered the CWS
as compared to 16 percent of children in cases not involving a CASA
volunteer.

      The Caliber Study did not provide data on the percentage of children
included in the study who reentered the CWS, rather the study included data
on the number of cases for which subsequent allegations of abuse were
reported. The Caliber Study found that:

  •   Subsequent allegations of abuse were reported for 36 percent of the
      closed cases involving a CASA volunteer as compared to 25 percent of
      the closed cases that did not involve a CASA volunteer.


                                  - 28 -
  •   Conversely, subsequent allegations of abuse were reported for only
      34 percent of the open cases involving a CASA volunteer as compared
      to 52 percent of the open cases that did not involve a CASA volunteer.

      However, it should be noted that the Caliber Study did not determine
whether the subsequent allegations of abuse were substantiated. Further,
the Caliber Study concluded that there was no significant difference in the
subsequent allegations of abuse reported for children in cases involving a
CASA volunteer as compared to cases not involving a CASA volunteer.

      HHS does not require state and local CPS agencies to report data on
reentry into the CWS. NCASAA also does not request that its CASA program
members provide reentry data. Further, CASA volunteers are frequently
dismissed by the courts once permanent placement is achieved. Once CASA
volunteers are dismissed from a case, they no longer have access to court
records related to case closure. Additionally, if the child reenters the CWS,
the CASA program does not receive this information unless the new case is
referred by the court.

      Nonetheless, we requested the state, local, and tribal CASA programs
provide reentry data from their case management systems on cases that
were closed during FYs 2002 through 2004, for children in cases involving a
CASA volunteer who had reentered the CWS after case closure. Based on
the information provided in the CASA Data Request, we found that for the
75,389 CASA cases closed during FYs 2002 through 2004, only 1,073
(1.4 percent) of the children reentered the CWS during that same period.

      Based on the OIG survey, we found that 76 percent of the respondents
stated that in cases involving a CASA volunteer, the children are less likely
to reenter the CWS for the following reasons:

  •   the volunteers ensure proper and permanent placement, and

  •   the needed services are provided and requirements are met.

       We found that 4 percent of the respondents in the OIG survey stated
that in cases involving a CASA volunteer, the children are more likely to
reenter the CWS for the following reasons:

  •   CASA volunteers continue to monitor cases and keep in touch with
      children so they know if and when children should be removed from
      the parents again, and

  •   CASA volunteers are dealing with high-risk cases.


                                  - 29 -
      Finally, we found that 20 percent of the OIG survey respondents
stated that in cases involving a CASA volunteer, the children are as likely to
reenter the CWS for the following reasons:

   •   relapses by parents and their inability to change, and

   •   CASA volunteers stay in contact and often monitor the cases after they
       have been closed.

      Based on the Youngclarke Review and our analysis of the information
obtained from the CASA Data Request and OIG survey, it appears that cases
involving a CASA volunteer were more likely to be “permanently closed.”

Achievement of Permanent Plan

       For each child in the CWS, a permanent plan for the placement of the
child is developed. Generally, the permanent plan is either reunification with
the parents or adoption. In recent years, to minimize the time a child
spends in the CWS, dual permanent plans have been incorporated in most
jurisdictions so that a back-up plan runs parallel to the primary plan. Dual
permanent plans were in part the result of the Adoptions and Safe Families
Act of 1997, which shortened timelines to encourage the speedy adoption of
children for whom reunification or guardianship was not an option. Typically
the primary plan is reunification with the parent and the back-up plan is
adoption, both of which are pursued in parallel to reduce the time the child is
in the system and the time it takes to achieve a permanent plan.
Additionally, the permanent plan changes over time as conditions and
circumstances change. For instance, the plan for an older child may change
from reunification with the parents to independent living based on the length
of time the child is in the CWS. As a result, in most instances the
permanent plan is generally achieved.

      Neither the Youngclarke Review nor the Caliber Study included data on
whether the permanent plan was achieved. However, both studies
contained information on the percentage of cases that resulted in
reunification, adoption or other closure. As shown in Table 15, based on the
Youngclarke Review and the Caliber Study, children in cases involving a
CASA volunteer were more likely to be adopted than children in cases not
involving a CASA volunteer.




                                   - 30 -
TABLE 15. COMPARISON OF ADOPTION OUTCOMES
                       ADOPTION    ADOPTION                             DIFFERENCE
            STUDY     WITH CASA   NON-CASA                              WITH CASA
 Youngclarke Review      28%         22%                                  + 6%
 Caliber Study22         11%          5%                                  + 6%
Source: Youngclarke Review and Caliber Study

      However, as shown in Table 16, based on the Youngclarke Review,
children in cases involving a CASA volunteer were less likely to be to be
reunified with their parents, than children in cases not involving a CASA
volunteer. Conversely, based on the Caliber Study, children in cases
involving a CASA volunteer were more likely to be to be reunified with their
parents, than children in cases not involving a CASA volunteer.

TABLE 16. COMPARISON OF REUNIFICATION OUTCOMES
                       REUNIFIED    REUNIFIED DIFFERENCE
           STUDY      WITH CASA    NON-CASA   WITH CASA
 Youngclarke Review      40%          45%       - 5%
 Caliber Study           63%          54%       + 9%
Source: Youngclarke Review and Caliber Study

      Based on the available data shown in Tables 15 and 16, we found that
children in cases involving a CASA volunteer were more likely to be adopted.
However, this may be because cases involving a CASA volunteer are
typically the most serious cases of maltreatment. Therefore, children in
these types of cases may be more likely to be adopted, regardless of
whether or not a CASA volunteer was involved.

      HHS does not require state and local CPS agencies to report data on
achievement of the permanent plan. NCASAA also does not request that its
CASA program members provide data on achievement of the permanent
plan. However, from the CASA Data Request and the OIG Survey we were
able to obtain data on outcomes for cases involving a CASA volunteer,
including the percentage of cases that resulted in reunification, adoption or
other closure, which we compared to the national average for all CPS cases,
including CASA cases. Specifically:

   •   The CASA Data Request found that 19 percent of children in cases
       involving a CASA volunteer were adopted as compared to the national

       22
           The Caliber Study only compared the outcomes for cases involving a CASA
volunteer as compared to cases not involving a CASA volunteer for children who had been
placed in foster care. There was no outcome data reported for children who had not been
placed in foster care.



                                       - 31 -
       2004 AFCARS average of 18.2 percent. Additionally, 40.8 percent of
       children in cases involving a CASA volunteer were reunified with their
       parents as compared to the national 2004 AFCARS average
       of 54 percent.

   •   The OIG survey found that respondents estimated that on average
       20.7 percent of children in cases involving a CASA volunteer were
       adopted as compared to the national 2005 AFCARS average of
       18.2 percent. Additionally, 44.5 percent of children in cases involving
       a CASA volunteer were reunified with their parents as compared to the
       national 2005 AFCARS average of 54 percent.

      In the CASA Data Request, we asked all programs nationwide to report
on the outcomes for children exiting the system during FY 2004. As shown
in Table 17, we compared the outcomes reported in the CASA Data Request
to those reported in the 2004 AFCARS report for all cases.

TABLE 17.     COMPARISON OF OUTCOMES FY 2004 CLOSED CASES
                          CASA DATA REQUEST      AFCARS
          OUTCOME        NUMBER     PERCENT  NUMBER  PERCENT
 Reunification             8,098     40.8%  151,648    53.6%
 Adoption                  3,767     19.0%   51,413    18.2%
 Legal Guardianship        2,776     14.0%   12,519     4.4%
 Emancipation              1,417       7.1%  23,121     8.2%
 Case Transferred          1,188       6.0%   6,126     2.2%
       23
 Other                     2,604     13.1%   38,172    13.5%
 TOTAL                    19,850    100.0%  282,999   100.0%
Source: CASA Data Request and AFCARS Report

      In addition to the CASA Data Request, based on the OIG survey we
found that 49 percent of the respondents stated that children in cases
involving a CASA volunteer were more likely to be adopted than children in
cases not involving a CASA volunteer. The general comment provided by
the respondents was that if reunification is not possible, adoption is sought
since the goal is permanent placement of the child.

      We also found that 40 percent of the respondents to the OIG survey
stated that children in cases involving a CASA volunteer were as likely to be
adopted as children in cases not involving a CASA volunteer. The general
comment provided by the respondents was that children are as likely to be


       23
         The “Other” category includes: living with a relative (other than a legal guardian),
a runaway, or the death of the child.



                                         - 32 -
adopted because CASA volunteers push for permanency, and adoption is a
permanent solution.

      Finally, 11 percent of the respondents to the OIG survey stated that
children in cases involving a CASA volunteer were less likely to be adopted
than children in cases not involving a CASA volunteer for the following
reasons:

   •   The number one goal of CASA volunteers is reunification and it is
       usually achieved.

   •   When reunification is not possible, permanent placement with a
       relative other than the parent is utilized.

      Additionally, in the OIG survey, we found that 34 percent of the
respondents stated that children in cases involving a CASA volunteer were
more likely to be reunited with their family than in cases not involving a
CASA volunteer. The general comment provided by the respondents was
that CASA volunteers advocate and monitor cases by visiting the families,
recommending services, and pushing the parents to succeed.

      We found that 49 percent of the respondents to the OIG survey stated
that children in cases involving a CASA volunteer were as likely to be
reunited with their family for the following reasons:

   •   Reunification is in the hands of the parents and their willingness to
       change and comply with services.

   •   Reunification is in the best interest of the family and CASA pushes the
       family to succeed.

      Finally, 16 percent of the respondents stated that children in cases
involving a CASA volunteer were less likely to be reunited with their family.
The general comment provided by the respondents was that cases involving
a CASA volunteer are the most severe and difficult because they generally
involve the most serious cases of maltreatment.

Summary and Conclusion

      We found that OJP had established outcome measures for its CASA
grant programs. However, the outcome measures established by OJP do not
address the effectiveness of the programs in meeting the needs of children
in the CWS. Additionally, none of the outcome measures established by OJP
address the outcome measures mandated by Congress for this audit.


                                    - 33 -
Further, with the exception of the length of time a child spends in foster
care, HHS does not require state and local CPS agencies to report data that
specifically addresses the outcome measures mandated for this audit.
NCASAA also does not request that its CASA program members provide data
that specifically addresses the outcome measures required for this audit.

      Nonetheless, based on the available studies, data, and the results of
the OIG survey, we found that in cases where CASA volunteers are involved
as compared to cases where CASA volunteers are not involved:

  •   the children spent more time in foster care as result of the fact that
      the children were generally already in foster care before a CASA
      volunteer was assigned;

  •   the children and their parents were ordered by the courts to
      participate in more services and received more services;
  •   the case was more likely to be “permanently closed,” i.e., the children
      were less likely to reenter the CWS; and

  •   the children were more likely to be adopted and less likely to be
      reunified with their parents.

       The Caliber Study found that the majority of cases involving a CASA
volunteer are typically the most serious cases of maltreatment. This was
supported by the 2005 Organizational Research Services Study which
concluded there is a general consensus (over 80 percent of respondents)
that judges tend to assign the most difficult cases to CASA volunteers.
Therefore, although the outcomes for cases involving a CASA volunteer
appear to be less favorable in some instances than cases not involving a
CASA volunteer, this may be a result of the fact that cases involving a CASA
volunteer are typically the most serious cases of maltreatment. As a result,
children in these types of cases are more likely to: (1) be placed in foster
care, (2) require more services, and (3) be adopted rather than reunified
with their parents. However, we also found that based on the limited
information available, children in cases involving a CASA volunteer were less
likely to reenter the CWS after permanent placement was achieved.




                                   - 34 -
Recommendation

     We recommend that OJP:

2.   Develop outcome-based performance measures for the CASA grant
     programs to determine the effectiveness of the programs in meeting
     the needs of children in the CWS. As appropriate, these outcome
     measures should correspond with the data required by HHS for state
     and local CPS agencies, so that OJP has a basis for comparing the
     effectiveness of its CASA grant programs.




                                - 35 -
                 STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the NCASAA Program, we
considered NCASAA’s internal controls for the purpose of determining our
auditing procedures. The evaluation was not made for the purpose of
providing assurance on the internal control structure as a whole. However,
we noted certain matters that we consider reportable conditions under
generally accepted government auditing standards.24


Finding I

   •   From 1999 through 2006, NCASAA erroneously allocated $1.23 million
       of its OJP grant funds to fundraising activities. However, we
       determined the $1.23 million was the result of an accounting error.

   •   In 1998 and 1999 NCASAA failed to input a program accounting code
       identifying the program activity for expenses totaling about
       $1.5 million.

      Because we are not expressing an opinion on the overall internal
control structure of NCASAA, this statement is intended solely for the
information and use of OJP and NCASAA in administering federal grants.




       24
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in our
judgment, could adversely affect the ability of NCASAA administer its grants.



                                           - 36 -
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we tested
NCASAA’s records and documentation for the period of January 1, 1998,
through June 30, 2006, to obtain reasonable assurance that it complied with
laws and regulations that, if not complied with, in our judgment could have a
material effect on the administration of federal grant funds.

       Compliance with laws and regulations applicable to the allowability and
allocability of federal grant expenditures, including subgrantee expenditures,
is the responsibility of NCASAA management. An audit includes examining,
on a test basis, evidence about compliance with laws and regulations. At the
time of our audit, the federal regulations governing the requirements for
federal grants could be found in:

        •   28 C.F.R. Part 70 (updated 2006), Uniform Administrative
            Requirements for Grants and Agreements (including subawards) with
            Institutions of Higher Education, Hospitals and Other Non-profit
            Organizations

        •   OMB Circular A-110, Uniform Administrative Requirements for Grants
            and Agreements with Institutions of Higher Education, Hospitals, and
            Other Non-Profit Organizations

        •   OMB Circular A-122, Cost Principles for Non-Profit Organizations

        •   OMB Circular A-123, Management’s Responsibility for Internal Control


      Except for the issues discussed in the Findings and Recommendations
section of this report, nothing came to our attention that caused us to
believe that NCASAA management was not in compliance with the federal
regulations governing the requirements for federal grants listed above.




                                       - 37 -
                                                                APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted an audit of NCASAA and the member CASA programs to
determine: (1) the types of activities NCASAA has funded since 1993, and
(2) the outcomes in cases where CASA volunteers are involved as compared
to cases where CASA volunteers are not involved, including:

  •   the length of time a child spends in foster care;

  •   the extent to which there is an increased provision of services;

  •   the percentage of cases permanently closed; and

  •   achievement of the permanent plan for reunification or adoption.

      We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were necessary to accomplish the
audit objectives. The audit generally covered, but was not limited to, the
period of January 1, 1993, through June 30, 2006. Audit work was
conducted at NCASAA and state, local, and tribal CASA program offices.

      To determine the types of activities funded by NCASAA since 1993, we
requested that NCASAA provide accounting data from January 1, 1993,
through June 30, 2006, for all expenditures from both federal and private
funding sources. We found that NCASAA did not retain any accounting
records or supporting documentation for expenditures occurring prior to
1995. Additionally, although NCASAA retained some of the accounting
records and supporting documentation for 1995 through 1997, the
information was incomplete. According to federal regulations
(28 C.F.R. § 70, updated 2006) grantees are only required to retain financial
records, supporting documents, statistical records, and all other records
pertinent to Department of Justice grants for a period of 3 years from the
date of submission of the final financial report. Therefore, NCASAA was not
required to retain the accounting records and supporting documentation for
its expenditures occurring prior to 1998, and we do not take exception to
this practice. As a result, our analysis was limited to the period of
January 1, 1998, through June 30, 2006.

      To determine the types of activities funded by NCASAA from
January 1, 1998, through June 30, 2006, we sorted the expenditures
reported in NCASAA’s general ledgers by program code. Additionally, we



                                   - 38 -
requested summary accounting information for the subgrantee expenditures
for the same time period, which we also sorted by type of expense.

      To verify NCASAA expenses for allowability and allocability, we
judgmentally selected 25 cost accounts totaling over $1.6 million.
Additionally, we randomly selected 15 transactions totaling over $500,000.
We tested the supporting documentation for all expenditures included in our
sample to determine if the costs were allowable, allocable, and properly
supported.

      To determine the outcomes in cases where CASA volunteers are
involved as compared to cases where CASA volunteers are not involved, we
found that with the exception of the length of time a child spends in foster
care, HHS does not require state and local CPS agencies to report data that
specifically addresses the outcome measures mandated by Congress for this
audit. NCASAA also does not request that its CASA program members
provide data that specifically addresses the outcome measures required for
this audit. As a result, although we obtained data for the state and local
CASA programs that we used to address the audit objectives, we were not
always able to obtain comparison data for cases that did not involve a CASA
volunteer. Further, OJP had not established outcome measures for any of its
grant programs that provide funding to CASA programs.

       Additionally, at any point in time, only a small percentage of the
participating state, local, and tribal CASA programs have open subgrants of
OJP grant funding awarded by NCASAA. For those CASA programs that do
not have subgrants NCASAA can request, but not require, that they provide
outcome data. Nonetheless, for its 2005 Annual Program Survey, NCASAA
received data on children from 90 percent of its CASA program members.

      Because of the lack of data on the objectives mandated for this audit,
to determine the outcomes in cases where CASA volunteers are involved as
compared to cases where CASA volunteers are not involved, we relied on the
following:

  •   prior studies of the NCASAA program;

  •   data from the state and local CASA program case-tracking databases
      (CASA Data Request), which we compared to national data maintained
      by HHS;

  •   data from an OIG survey distributed to all state, local, and tribal CASA
      program offices; and



                                  - 39 -
   •   the most recent AFCARS data available at the time our analysis was
       conducted on all children in the state and local CPS for comparison
       purposes.25

      We identified two studies of the CASA program that in our judgment
provided the most comprehensive and current information related to this
objective.

   •   Youngclarke, Davin M. and Kathleen Ramos and Lorraine
       Granger-Merkle. "A Systematic Review of the Impact of
       Court-Appointed Special Advocates," Journal of the Center for
       Families, Children and the Courts, Vol. 5, 2004, pp. 109-126
       (Youngclarke Review). The Youngclarke Review summarized the
       findings of 20 prior studies that assessed the impact of CASA
       programs. In conducting the review, almost 70 prior studies of CASA
       programs were analyzed, but only 20 met the criteria for inclusion in
       the results of the Youngclarke Review. The review compares the
       combined average outcome measures reported in the prior studies for
       cases involving a CASA volunteer to those for which a CASA volunteer
       was not appointed.

   •   Caliber Associates, Evaluation of CASA Representation, 2004, (Caliber
       Study).26 The Caliber Study combines data from NCASAA’s
       management information systems and data collected through the
       National Survey of Child and Adolescent Well-Being, a federally
       sponsored national survey of children and their families. The study
       compares outcome measures for cases involving a CASA volunteer to
       those for which a CASA volunteer was not appointed.

      For the CASA Data Request, NCASAA distributed our request for data
from the case management systems to 731 state, local, and tribal CASA
programs. We received data from 192 respondents representing
339 programs.

       Additionally, we distributed a nationwide survey to state, local, and
tribal CASA programs offices requesting information on the four outcome
measures, as well as additional information on the: (1) basis for the
responses related to the four outcome measures in our survey,

       25
           It should be noted that HHS does not collect separate data on CASA cases, rather
the AFCARS data includes all CASA and non-CASA cases related to children in the state and
local CPS.
       26
          It should be noted that the Caliber Study was funded in part by NCASAA. Funding
was also provided by the Packard Foundation.



                                        - 40 -
(2) effectiveness of NCASAA, and (3) data reported in the Caliber Study.
Out of the 945 CASA programs to which the OIG survey was sent, we
received 491 responses. The consolidated results of the OIG survey are
detailed in Appendix II.




                                 - 41 -
                                                               APPENDIX II

           OIG SURVEY CONSOLIDATED RESPONSES

     The following guidance was provided to the survey respondents at the
beginning of the survey:

     We ask that you answer each question to the best of your
     knowledge as it pertains to your program office. We recognize
     specific numbers may not be readily available; however, we
     would appreciate it if you would provide estimates based on your
     experience.

     As a rule, please select only one answer to each of the survey
     questions unless otherwise instructed and where applicable,
     guidance on how to interpret the question is presented in italics.

     Please complete the survey in an electronic format, the text
     boxes you are asked to write in will expand as you enter your
     response. (If you are unable to complete the survey
     electronically, please contact us for assistance.)

      Four of the survey questions (2, 5, 10, and 18), allowed respondents
to provide a comment to an “other” response. Nine of the survey questions
( 3, 25, 27, 29, 30, 31A and B, 32, 33, and 34), allowed respondents to
provide a reason as to why they selected that answer. Additionally, one of
the survey questions (35), was an open-ended question that allowed the
respondents to provide a general comment on the topic of the survey. Some
comments were modified slightly to correct for grammar and sentence
structure.

Survey Results

Background

1.   How long have you been the Coordinator / Director /
     Administrator of your CASA/GAL program office?

     Of the 399 responses received, the average answer was 58 months or
     5 years.




                                  - 42 -
2.    What program type is your CASA/GAL office?


                                  Program Office Type
                            5%
                        1%
                                  0%               Remote
                       4%
                                                   Local
                 15%
                                                   Local - State Gov.
                                                   State Org. - No Direct Services
                                                   State Org. - Direct Services

                                        75%        Other




     The respondents who said “Other” were given the opportunity to provide
     a comment and we received 21 comments. Eight of the 21 respondents
     wrote they are a local program, which was one of the options available,
     but they elaborated on their answers. Nine of 21 respondents indicated
     that they are under an umbrella agency.

3.    How many jurisdictions does your program office currently
      serve?


                            Program Office Jurisdictions


                                  14%

                                                               1 Jurisdiction
                            11%
                                                               2 Jurisdictions

                                                               >2 Jurisdictions

                                                 75%




      For the 14 percent of respondents that answered greater than
      2 jurisdictions, the average number of jurisdictions was 5.1.


                                        - 43 -
4.   What Geographic Region is your program office located?


                                     Geographic Region of the Program Offices


                                               10%         13%
                                                                                Western
                                        16%                                     MT Plains
                                                                                Midwest
                                                                  23%
                                                                                Northeast
                                       12%                                      Mid Atlantic
                                                                                Southern Gulf
                                                     26%



5.   What types of funding does your program office receive?
     (check all that apply)


                                     Types of Funding Program Offices Receive
         Number of Responses




                               350                                       315
                                                            295                257
                               300
                               250
                                      171
                               200              145
                               150
                               100
                                50
                                 0
                                     NCASAA     Other      State    Private    Other
                                      Grants   Federal     Grants   Funding
                                               Grants
                                                      Types of Funding



     Some of the “Other” funding sources given by the 239 respondents
     who provided a comment included:

     •   85 of the 239 respondents received funding from foundations or
         grants,

     •   78 of the 239 respondents received county funding,



                                                           - 44 -
     •   54 of the 239 respondents received funding from fundraisers or
         special events, and

     •   30 of the 239 received funding from corporations, individuals, and
         community donations.

6.   How many volunteers does your program office currently have?

     The average number of volunteers for a CASA program office was 78.

7.   How many supervisors does your program office currently
     have?

     The average number of supervisors for a CASA program office was 3.

8.   What is the total estimated number of children referred to your
     program office during the past 12 months?

     The total average estimated number of children referred to each CASA
     program office during the past 12 months was 214 for each office visit.

9.   Of the children referred to your program office during the past
     12 months, what is the estimated percentage of children for
     which a volunteer advocate was assigned?


               Estimated Percentage of Children for Which a
                         Volunteer was Assigned


                                5%
                                     8%
                                                      0-20 %
                                          11%         21-40%
                                                      41-60%
                      60%                             61-80%
                                          16%
                                                      81-100%




                                  - 45 -
10.   If you are unable to assign an advocate to every child referred
      to your office, what sources are used by your state to
      determine which children are assigned a CASA/GAL volunteer?
      (Check all that apply)


                                      Sources used to Assign a CASA/GAL Volunteer

                                200
          Number of Responses




                                          161                                          164
                                150
                                                                    94
                                100
                                                       43                      33
                                 50

                                  0
                                         Court     State Statue   W ritten   Grading   Other
                                        Protocol                  Policy      matrix
                                                                  Sources



      Of the comments given by respondents who said “Other”:

      •   42 respondents stated that volunteers are assigned based on
          priority and or severity of cases,

      •   25 respondents stated that all cases assigned to a CASA office
          receive a volunteer, and

      •   22 respondents stated cases are assigned based on volunteer
          availability.

11.   In your program office, what is the current number of open
      cases for which an advocate has been assigned?

      The average number of open cases for which an advocate had been
      assigned was 126.




                                                             - 46 -
12.   How long is a child’s case open in your program office, from the
      time an advocate is appointed until the case is closed? (Please
      estimate the average length of time per case regardless of
      whether or not the same advocate worked on the case for the
      entire length of time.)


                                      Average Length of Time a Child's Case is Open

                                50%
         Percent of Responses




                                                                  44%
                                40%
                                                                                27%
                                30%
                                                      18%
                                20%
                                                                                               11%
                                10%
                                           1%
                                0%
                                        ≤ 2 months 7-12 months    13-18        19-24        > 24 months
                                                                  months       months
                                                              Time in Months



13.   On average, what is the number of hours an advocate from
      your program office works on a case, from the time an
      advocate is assigned until it is closed?


                                  Average Number of Hours a CASA/GAL Works on
                                                     a Case

                                 60%                                                           57%
                                 50%
         Responses
         Percent of




                                 40%
                                 30%
                                                                      15%        21%
                                 20%
                                             1%         6%
                                 10%
                                  0%
                                           ≤ 25 hrs   26-50 hrs   51-75 hrs    76-100 hrs    >100 hrs
                                                                   Hours




                                                             - 47 -
Foster Care

Please answer the following questions based on your experience as
it relates to the children for which your CASA/GAL program office
assigned an advocate.

14.   On average, what percentage of children with an advocate are
      placed in foster care during any time that the child is in the
      system?


                                 Average Percentage of Children with a CASA/GAL
                                          who are placed in Foster Care
         Percent of Responses




                                60%                                              52%
                                50%
                                40%
                                30%
                                                                        18%
                                20%                          11%
                                      12%       7%
                                10%
                                 0%
                                      0-20 %   21-40%       41-60%    61-80 %   81-100%
                                                   Percentage of Children




                                                        - 48 -
15.   On average, what percentage of children had already been
      placed in foster care prior to being referred to your program
      office?


                        Average Percentage of Children who were in
                      Foster Care prior to being referred to a Program
                                            Office
                                                                            54%
                      60%
                      50%
         Responses
         Percent of




                      40%
                      30%
                      20%     14%                                    16%
                                           6%            10%
                      10%
                       0%
                             0-20%        21-40%      41-60%      61-80%   81-100%
                                             Percentage of Children



16.   On average, how many months would you estimate that
      children were in foster care before the child was referred to
      your program office?


                       Average Estimated Number of Months Children
                       were in Foster Care prior to being referred to a
                                       Program Office

                      100%     82%
         Responses




                       80%
         Percent of




                       60%
                       40%
                                            12%           4%         1%      1%
                       20%
                        0%
                             ≤ 6 months    7-12          13-18    19-24     > 24
                                          months         months   months   months
                                                  Number of Months




                                                - 49 -
17.   On average, how many months would you estimate that the
      children are in foster care after the child was referred to your
      office?


                       Average Estimated Number of Months Children
                         are in Foster Care after being referred to a
                                       Program Office

                      50%
                                         38%            36%
         Responses




                      40%
         Percent of




                      30%
                                                                  13%
                      20%      9%                                          4%
                      10%
                       0%
                            ≤ 6 months    7-12      13-18     19-24     >24 months
                                         months     months    months
                                               Number of Months




                                               - 50 -
Services

Please answer the following questions based on your experience as
it relates to the number of services ordered and received for both
children and parents in the cases for which your CASA/GAL program
office provided advocacy services.

18.       What types of services are typically ordered for the children
          and parents? (check all that apply)


                         Types of Services Typically Ordered for Children
                                           and Parents
                               421           417                                            415
                         500
                                                                               383
             Responses
             Number of




                         400                                                                             262
                                                      280          255
                         300
                                                                                                                  139
                         200
                         100
                           0
                                                                              evaluation




                                                                                                       Domestic
                               Counseling



                                            Alcohol

                                                      Medical




                                                                                                                  Other
                                                                   Ed. Plan




                                                                                           Parenting



                                                                                                       Violence
                                            Drug /




                                                                                                        classes
                                                                                            classes
                                                                                Psyc




                                                                      Services



      133 respondents provided a comment as to the “Other” types of
      services typically ordered, including:

      •    36 of the 133 respondents stated anger management services are
           recommended for parents.

      •    26 of the 133 respondents stated supervised or non-supervised
           visitations for children with their parents and family are
           recommended.




                                                                - 51 -
19.   On average what is the estimated total number of services
      ordered,

      A. Per child?


                        Average Estimated Total Number of Services
                                    Ordered per Child

                      60%
                               49%          47%
                      50%
         Responses
         Percent of




                      40%
                      30%
                      20%
                                                          3%           0%       1%
                      10%
                       0%
                            ≤ 3 services 4-6 services 7-9 services    10-12      >12
                                                                     serices   services
                                                  Number of Services



      B. Per parent?


                        Average Estimated Total Number of Services
                                    Ordered per Parent
                               63%
                      70%
                      60%
         Responses
         Percent of




                      50%
                                            36%
                      40%
                      30%
                      20%
                                                          1%           0%       0%
                      10%
                       0%
                            ≤ 5 services     6-10       11-15         16-20      >20
                                           services    services      serices   services
                                                  Number of Services




                                                 - 52 -
      C. If the information cannot be broken out between child and
         parent, please estimate the total number of services
         ordered, on average, per family.

      Question 19C was conditional on questions 19A and B. As a result,
      only 11 responses were received. Therefore, calculating the
      percentage of responses given could be misleading. The results are as
      follows:

      •   8 of the 11 respondents said that on average less than or equal to
          8 services were ordered per family, and

      •   3 of the 11 respondents said that on average 9 to 16 services were
          ordered per family.

20.   On average what is the estimated percentage of ordered
      services that are actually provided to the

      A. Child?


                             Average Estimated Percentage of Ordered
                              Services Actually Provided to the Child

                       70%                                                  63%
                       60%
                       50%
          Responses
          Percent of




                       40%
                       30%
                                                                     21%
                       20%
                                 4%       4%            8%
                       10%
                        0%
                                0-20 %   21-40%     41-60%      61-80 %    81-100 %
                                               Percent of Services




                                               - 53 -
B. Parent?


                       Average Estimated Percentage of Ordered
                        Services Actually Provided to the Parent
                                                                        47%
                 50%
                 40%
                                                                31%
    Responses
    Percent of




                 30%
                                                   16%
                 20%
                                     5%
                 10%
                           1%
                 0%
                          0-20 %   21-40%      41-60%      61-80 %    81-100 %
                                          Percent of Services



C. If the information cannot be broken out between child and
parent, please estimate the percentage of ordered services
actually provided, per family.

Question 20C was conditional on questions 20A and B. As a result,
only 8 responses were received. Therefore, calculating the percentage
of responses given could be misleading. The results are as follows:

•   1 of the 8 respondents said 21 to 40 percent of ordered services
    were actually provided per family,

•   1 of the 8 respondents said 41 to 60 percent of ordered services
    were actually provided per family,

•   1 of the 8 respondents said 61 to 80 percent of ordered services
    were actually provided per family, and

•   5 of the 8 respondents said 81 to 100 percent of ordered services
    were actually provided per family.




                                          - 54 -
Permanent Plan

Please answer the following questions based on your experience as
it relates to the closed cases for which your CASA/GAL program
office provided advocacy services.

21.   On average, what is the estimated percentage of closed cases
      for which the child does not reenter the child welfare system,
      i.e., permanently closed cases? (When we say ”permanently
      closed” we mean as of the date you are completing this survey,
      the child has not reentered the child welfare system).


                       Average Estimated Percentage of Permanently
                         Closed Cases for which the Child does not
                             Reenter the Child Welfare System

                      80%
                                                                     64%
         Responses




                      60%
         Percent of




                      40%
                            12%                             17%
                      20%
                                      2%            5%
                      0%
                            0-20 %   21-40%     41-60%    61-80 %   81-100 %
                                      Percentage of Closed Cases




                                           - 55 -
22.   What is the estimated percentage of cases where the final
      outcome was the same as the permanent plan (includes any
      concurrent plan)?


                       Estimated Percentage of Cases where the Final
                           Outcome Matched the Permanent Plan

                      70%
                                                                                58%
                      60%
                      50%
         Responses
         Percent of




                      40%
                                                               25%
                      30%
                                                      11%
                      20%
                             1%         4%
                      10%
                       0%
                            0-20 %     21-40%      41-60%     61-80 %     81-100 %
                                             Percentage of Cases



23.   In your experience is the permanent plan (includes any
      concurrent plan) more likely to be achieved, as likely to be
      achieved, or less likely to be achieved?


                      Achievement of the Permanent Plan for Children
                                    with a CASA/GAL


                                  1%
                            14%
                                                              More likely to be
                                                              achieved
                                                              As likely to be
                                                              achieved
                                                              Less likely to be
                                                              achieved
                                       85%




                                             - 56 -
24.       What is the estimated percentage of children who have had
          their cases closed for the following reasons (the sum of your
          responses for all categories should not exceed 100 percent):


            REASON FOR         0-20     21-40         41-60           61-80     81-100
              CLOSURE       PERCENT     PERCENT      PERCENT         PERCENT    PERCENT
          Reunification        17%       31%           35%              14%       3%
          Adoption             57%       31%           10%               2%        -
          In kin care          50%       37%           10%               3%        -
          Other                75%       19%            4%               2%        -

25.       In your experience is the permanent plan (includes any
          concurrent plan) more likely to be resolved in the best interest
          of the child, as likely to be resolved in the best interest of the
          child, or less likely to be resolved in the best interest of the
          child?


                 Are Cases with a CASA/GAL Resolved in the Best
                              Interest of the Child?


                                                  More likely to be resolved
                          5%    0%                in the best interest of the
                                                  child
                                                  As likely to be resolved in
                                                  the best interest of the
                                                  child
                                                  Less likely to be resolved
                                                  in the best interest of the
                               95%                child




      Of the 439 respondents (95 percent) who said “more likely” to be
      resolved, 404 provided comments that included the following:

      •    67 of the 404 comments stated that the CASA volunteers’ primary
           focus is the child’s best interest, and

      •    26 of 404 comments stated that a CASA volunteer monitors all
           aspects of the case.




                                      - 57 -
Of the 22 respondents (5 percent) who said “as likely” to be resolved,
16 provided comments that included the following:

•   6 of the 16 comments indicated the best interest of the child is
    ultimately in the judges’ control, whether or not they follow CASA’s
    recommendations.




                               - 58 -
National CASA Association

26.    Please rank the effectiveness of the NCASAA in providing
       leadership, training and technical assistance?


                The Effectiveness of the NCASAA in Providing
                Leadership, Training and Technical Assistance
                               3%
                             1%
                         8%
                                                      4 excellent
                                                      3 good
                                        46%
                                                      2 fair
                                                      1 poor
                       42%
                                                      no opinion




27.    Do you use the COMET Database Program provided by the
       NCASAA?


                    Use of the COMET Database Program




                         28%                         Yes, I use
                                                     COMET

                                                     No, I do not
                                                     use COMET

                                             72%




      The respondents who said “no” were given the opportunity to provide a
      reason as to why they do not use COMET. Of the 139 respondents
      (28 percent) who said “no,” 123 provided comments that included the
      following:


                                    - 59 -
      •    28 of the 123 respondents use either CASA Tracker or CASA manager
           instead of COMET,

      •    28 of the 123 respondents use an alternative, simpler database
           system, such as Microsoft Access or Excel, and

      •    22 of the 123 comments described COMET as being too
           time-consuming, not user friendly, or too complex or difficult to use.

28.       If you answered yes to question 27, please rank the COMET
          System provided by the NCASAA?


                           Ranking the COMET System


                                   2%
                            12%
                                           25%          4 excellent

                                                        3 good

                                                        2 fair

                                                        1 poor

                             61%




                                        - 60 -
Caliber Report

Please answer the following questions based on your experience as
it relates to the children for whom your CASA/GAL program office
provided advocacy service, as well as, your general knowledge of the
child welfare system as a whole.

29.   The evaluation of the CASA Representation prepared by Caliber
      and Associates indicated that children who had a CASA/GAL
      volunteer were more likely to be placed in foster care than
      children without a CASA/GAL volunteer. In your opinion, are
      children with a CASA/GAL volunteer more likely to be placed in
      foster care?


                Are Children with a CASA/GAL more likely to be
                            placed in Foster Care?




                                                         Yes

                        50%                 50%
                                                         No




      Of the 228 respondents (50%) who said “yes,” 220 provided
      comments that included the following:

      •   98 of the 220 respondents stated that children are already in foster
          care before the case is assigned to a CASA volunteer.

      •   44 of the 220 respondents stated that children with CASA/GAL
          volunteers are more likely to be placed in foster care because CASA
          volunteers are assigned the most difficult and complex cases.

      Of the 226 respondents (50 percent) who said “no,” 212 provided
      comments that included the following:




                                   - 61 -
      •   105 of the 212 respondents stated that the children are already
          placed in foster care before CASA is assigned.

      Based on the comments provided by respondents who said “no,” we
      believe that question 29 may have been misinterpreted. The question
      was whether children with a CASA volunteer are more likely to be
      placed in foster care. The respondents who said “no” commented that
      the children were already in foster care.

30.   The evaluation of the CASA Representation report indicated
      that children who had a CASA/GAL volunteer were more likely
      to be placed in foster care longer than children without a
      CASA/GAL volunteer. In your opinion, on average, do children
      with a CASA/GAL volunteer spend more time in foster care?


               Do Children with a CASA/GAL spend more time in
                                 Foster Care?




                                            34%
                                                        Yes

                                                        No
                         66%




      Of the 153 respondents (34 percent) who said “yes,” 151 provided
      comments that included the following:

      •   54 of the 151 respondents indicated that CASA volunteers want
          permanent reunification and will take more time to assure that
          happens, rather than just be concerned with closing the case.

      •   51 of the 151 respondents said that CASA volunteers are assigned
          to the most complex and difficult cases, so it may take longer for
          reunification to occur, if ever.

      Of the 298 respondents (66 percent) who said “no,” 268 provided
      comments that included the following:


                                   - 62 -
      •   69 of the 268 respondents stated that CASA volunteers focus on
          achieving permanency faster so children do not stay in foster care
          too long.

31.   The evaluation of the CASA Representation report indicated
      that children and parents with a CASA/GAL volunteer were
      provided with more services on average than children without
      CASA/GAL volunteer. In your opinion, are more services
      ordered:

      A. for children with a CASA/GAL volunteer?


                 Are more services ordered for Children with a
                                 CASA/GAL?


                                5%


                                                        Yes

                                                        No


                                     95%




      Of the 449 respondents (95 percent) who said “yes,” 424 provided
      comments that included the following:

      •   182 of the 424 respondents stated that CASA volunteers give more
          attention and time to the child, and therefore more services are
          identified.

      •   21 of the 424 respondents stated that other agencies that request
          services are bound by monetary constraints when considering what
          to recommend, whereas CASA is not.

      Of the 26 respondents (5 percent) who said “no,” 18 provided
      comments that included the following:




                                     - 63 -
•   8 of the 18 respondents stated that a CASA volunteer is not in
    control of what services are ordered, and that decisions are made
    before a volunteer’s involvement.

B. for the parents of children with a CASA/GAL volunteer?


         Are more services orderd for Parents of Children
                        with a CASA/GAL?


                        11%


                                                 Yes

                                                 No


                                89%




Of the 416 respondents (89 percent) who said “yes,” 381 provided
comments that included the following:

•   93 of the 381 respondents stated that it is in the best interest of
    the child to have more services provided for parents in order for
    successful reunification.

•   52 of the 381 respondents stated that more services are offered for
    parents because CASA volunteers spend more time with the
    families and therefore have a better idea of what services are
    needed.

Of the 49 respondents (11 percent) who said “no,” 39 provided
comments that included the following:

•   15 of the 39 respondents stated that services ordered for parents
    are not assigned by a CASA volunteer.

•   5 of the 39 responses stated that a CASA volunteer’s focus is on the
    children, not the parents.




                              - 64 -
32.   The evaluation of the CASA Representation report indicated
      that children with a CASA/GAL volunteer were more likely to
      have reports of subsequent abuse. However, the report does
      not address the number of children who actually reentered the
      child welfare system. In your opinion, are children with a
      CASA/GAL volunteer more likely to reenter the CWS, as likely
      to reenter the CWS, or less likely to reenter the CWS?


               Are Children with a CASA/GAL likely to reenter the
                         Child Welfare System (CWS)?


                             4%
                                   20%          More likely to reenter the
                                                CWS
                                                As likely to reenter the
                                                CWS
                                                Less likely to reenter the
                    76%                         CWS




      Of the 19 respondents (4 percent) who said “more likely,” all
      19 provided comments that included the following:

      •   10 of the 19 respondents stated that CASA volunteers continue to
          monitor cases and keep in touch with children, so the volunteers
          know if and when children should be removed from their parents
          again.

      •   7 of the 19 respondents stated that children are more likely to
          reenter the child welfare system because CASA volunteers are
          dealing with high-risk cases.

      Of the 91 respondents (20 percent) who said “as likely,” 78 provided
      comments that included the following:

      •   34 of the 78 respondents stated that children are as likely to
          reenter the child welfare system because of relapses by parents and
          their inability to change.

      •   12 of the 78 respondents stated that CASA volunteers stay in
          contact and often monitor cases after they have been closed.


                                    - 65 -
      •   7 of the 78 respondents stated that the CASA volunteer does not
          stay in contact after cases are closed.

      Of the 346 respondents (76 percent) who said “less likely,”
      307 provided comments that included the following:

      •   93 of the 307 respondents stated that children are less likely to
          reenter into the child welfare system because volunteers ensure
          proper and permanent placement.

      •   71 of the 307 respondents stated that children are less likely to
          reenter into the child welfare system because the needed services
          are provided and requirements are met.

33.   The evaluation of the CASA Representation report indicated
      that children with a CASA/GAL volunteer are more likely to be
      referred for adoption. In your opinion, are children with a
      CASA/GAL volunteer more likely to be adopted, as likely to be
      adopted, or less likely to be adopted?


                   Are Children with a CASA/GAL likely to be
                             referred for adoption?


                        11%
                                                   More likely to be
                                                   adopted
                                    49%            As likely to be
                                                   adopted
                  40%                              less likely to be
                                                   adopted




      Of the 223 respondents (49 percent) who said “more likely,”
      206 provided comments that included the following:

      •   74 of the 206 respondents stated that if reunification is not
          possible, adoption is pushed because CASA volunteers’ goal are
          permanency for the child.




                                    - 66 -
Of the 185 respondents (40 percent) who said “as likely,”
141 provided comments that included the following:

•   23 of the 141 respondents stated that children are as likely to be
    adopted because CASA volunteers are looking out for the child’s
    best interest and adoption may not be it.

•   19 of the 141 respondents stated that children with a CASA
    volunteer are only as likely to be adopted because children referred
    to CASA volunteers are the most difficult and complex cases.

•   19 of the 141 respondents stated that children are as likely to be
    adopted because CASA volunteers push for permanency, and
    adoption is a permanent solution.

Of the 51 respondents (11 percent) who said “less likely,” 48 provided
comments that included the following:

•   26 of the 48 respondents stated that the main goal of CASA
    volunteers is reunification and it is usually achieved.

•   14 of the 48 respondents stated that when reunification is not
    possible, kinship or relative placement is utilized.




                             - 67 -
34.   The evaluation of the CASA Representation report also
      indicated children with a CASA/GAL volunteer are less likely to
      be reunited with their family. In your opinion, are children
      with a CASA/GAL volunteer more likely to be reunited with
      family, as likely to be reunited with family, or less likely to be
      reunited with family?


                   Are Children with a CASA/GAL likely to be
                           reunited with their family?


                      16%
                                                   More likely to be
                                    34%            reunited with family

                                                   As likely to be
                                                   reunited with family

                                                   Less likely to be
                     50%                           reunited with family




      Of the 155 respondents (34 percent) who said “more likely,”
      142 provided comments that included the following:

      •   57 of the 142 respondents stated children are more likely to be
          reunited with their families because CASA volunteers advocate and
          monitor cases by visiting the families, recommending services, and
          pushing the parents to succeed.

      Of the 225 respondents (50 percent) who said “as likely,”
      184 provided comments that included the following:

      •   56 of the 184 respondents stated that reunification is in the hands
          of the parents and their willingness to change and comply with
          services.

      •   49 of the 184 respondents stated that children are as likely to be
          reunited with their family because it is in their best interest and
          they push the family to succeed.

      Of the 71 respondents (16 percent) who said “less likely,” 68 provided
      comments that included the following:


                                    - 68 -
      •   35 of the 68 respondents stated that children are less likely to be
          reunited with their family because the cases are the most severe
          and difficult.

35.   Do you have any other comments, suggestions, or concerns
      that you can offer regarding CASA/GAL programs or any of the
      items discussed in this survey?

      239 of the 491 respondents provided comments, suggestions, and
      concerns that included the following:

      •   41 of the 239 respondents indicated that they had a problem with
          the questions on the Caliber report and/or the CASA/GAL Program
          Office Survey.

      •   40 of the 239 responses stated that CASA is a great program that
          families need.

      •   28 of the 239 responses stated that it is very difficult to measure
          CASA services with numbers because every case is unique and so
          many variables are immeasurable and intangible.

      •   19 of the 239 respondents stated that CASA programs need
          additional funding.

      In addition, some common trends were identified in all of the
      comments. The two global comment trends were:

      •   CASA/GAL volunteers’ primary focus is on the child’s best interest.

      •   Cases that are assigned to CASA volunteers are the most difficult
          and challenging.




                                    - 69 -
         APPENDIX III




- 70 -
- 71 -
         APPENDIX IV




- 72 -
- 73 -
                                                               APPENDIX V

            ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE THE REPORT


1.   Resolved. This recommendation can be closed when we receive
     documentation supporting that NCASAA has established a
     methodology for allocating indirect costs so that federal funds are not
     charged to unallowable cost categories.

2.   Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has developed outcome-based
     performance measures for the CASA grant programs that determine
     the effectiveness of the programs in meeting the needs of children in
     the CWS. As appropriate, these outcome measures should correspond
     with the data required by HHS for state and local CPS agencies, so
     that OJP has a basis for comparing the effectiveness of its CASA grant
     programs.




                                 - 74 -
